<html>
<title> - SEATTLE FIELD HEARING: COMING HOME FROM COMBAT</title>
<body><pre>[Senate Hearing 109-328]
[From the U.S. Government Printing Office]



                                                        S. Hrg. 109-328
 
 SEATTLE FIELD HEARING: COMING HOME FROM COMBAT--ARE VETERANS GETTING 
                          THE HELP THEY NEED?

=======================================================================

                                HEARING

                               BEFORE THE

                     COMMITTEE ON VETERANS' AFFAIRS

                          UNITED STATES SENATE

                       ONE HUNDRED NINTH CONGRESS

                             FIRST SESSION

                               __________

                             August 3, 2005

                               __________

       Printed for the use of the Committee on Veterans' Affairs


 Available via the World Wide Web: http://www.access.gpo.gov/congress/
                                 senate



                    U.S. GOVERNMENT PRINTING OFFICE

24-581 PDF                  WASHINGTON : 2006
------------------------------------------------------------------
For sale by Superintendent of Documents, U.S. Government Printing 
Office Internet: bookstore.gpo.gov  Phone: toll free (866) 512-1800;
DC area (202) 512-1800 Fax:  (202) 512-2250. Mail:  Stop SSOP, 
Washington, DC 20402-0001


                     COMMITTEE ON VETERANS' AFFAIRS


        .........................................................


                    Larry E. Craig, Idaho, Chairman
Arlen Specter, Pennsylvania          Daniel K. Akaka, Hawaii, Ranking 
Kay Bailey Hutchison, Texas              Member
Lindsey O. Graham, South Carolina    John D. Rockefeller IV, West 
Richard Burr, North Carolina             Virginia
John Ensign, Nevada                  James M. Jeffords, (I), Vermont
John Thune, South Dakota             Patty Murray, Washington
Johnny Isakson, Georgia              Barack Obama, Illinois
                                     Ken Salazar, Colorado


                  Lupe Wissel, Majority Staff Director
               D. Noelani Kalipi, Minority Staff Director


                            C O N T E N T S

                              ----------                              

                             August 3, 2005

                                SENATORS

                                                                   Page


Murray, Hon. Patty, U.S. Senator from Washington.................     1

                               WITNESSES

Lowenberg, Major General Timothy, Adjutant General, Washington 
  State Military Department......................................     4
    Prepared statement...........................................     5
Lewis, Dennis, Assistant Deputy Under Secretary, Health 
  Operations and Management; Acting Network Director, Veterans 
  Integrated Service Network 20 (VISN 20)........................     7
    Prepared statement...........................................     8
Arnold, Kristine A., Director, Seattle Veterans Affairs Regional 
  Office, Veterans Benefits Administration, Department of 
  Veterans Affairs...............................................    10
    Prepared statement...........................................    12
King, John, Director, Washington State Department of Veterans 
  Affairs........................................................    15
    Prepared statement of John Lee, Deputy Director, Washington 
      State Department of Veterans Affairs.......................    16
Hall, Specialist Blaine Miles, Washington Army National Guard....    24
    Prepared statement...........................................    25
Romanelli, Staff Sergeant Kevin (Ret.), U.S. Army................    26
    Prepared statement...........................................    26
Hampton, Crystal, Veteran, U.S. Army.............................    28
    Prepared statement...........................................    29
Kauder, Sergeant Robert, Washington Army National Guard..........    30
    Prepared statement...........................................    31
Hunt, Stephen, M.D., Director, Deployment Clinic, Puget Sound 
  Health Care System, Department of Veterans Affairs.............    42
    Prepared statement...........................................    43
Boxmeyer, Ron, M.S., Team Leader, Seattle Veterans Center, 
  Readjustment Counseling Services, Department of Veterans 
  Affairs........................................................    45
    Prepared statement...........................................    46
Holt, Linda, Tribal Council Member, Suquamish Tribe..............    47
    Prepared statement...........................................    49
Forbes, Colonel Mary, J-1 and Human Resources Director, 
  Washington Army National Guard.................................    51
    Prepared statement...........................................    52


 SEATTLE FIELD HEARING: COMING HOME FROM COMBAT--ARE VETERANS GETTING 
                          THE HELP THEY NEED?

                              ----------                              


                       WEDNESDAY, AUGUST 3, 2005

                               U.S. Senate,
                    Committee on Veterans' Affairs,
                                                    Washington, DC.
    The Committee met, pursuant to notice, at 10:07 a.m., at 
the Army National Guard Armory, 1601 West Armory Way, Seattle, 
Washington, Hon. Patty Murray, presiding.
    Present: Senator Murray.

            OPENING STATEMENT OF HON. PATTY MURRAY, 
                  U.S. SENATOR FROM WASHINGTON

    Senator Murray. Good morning. I call this hearing of the 
Senate Veterans' Affairs Committee to order. I want to welcome 
all of you and thank you very much for coming today. By being 
here today, you are sending a very strong message that we care 
about everyone who serves our Nation. Every day, in ways large 
and small, Washington State military personnel are making all 
of us proud. They are facing challenges overseas and their 
families are making sacrifices here at home. They are doing 
what our country asked. Now, as they come home, we must do what 
our country has promised; heal their wounds, meet their needs 
and ease their return to family, to work, and to our 
communities.
    I called this hearing today to explore one question. Are 
today's veterans getting the help they need as they come home 
from combat? To answer that question, we will hear testimony 
today from military leaders, service providers and our veterans 
themselves. In the audience today, we have many people who have 
answered our call to their country's service in times of war 
and peace. We have an obligation to you and I am honored to 
serve on the Senate Veterans' Affairs Committee so I can be a 
voice for you and the 670,000 veterans throughout our State.
    I grew up understanding sacrifice that veterans make. 
During World War II, my dad was one of the first GIs to land in 
Okinawa. He was injured, sent to Hawaii and then immediately 
sent back to Okinawa. Like many in our audience today, he was 
awarded the Purple Heart.
    When I was in college at Washington State University, I 
asked to do my internship at the VA hospital here in Seattle. I 
moved from home to Seattle for the semester, rented a room and 
I spent my days on the psychiatric ward working with veterans 
who had just come home from Vietnam. Today, I am the first 
woman to serve on the Senate Veterans' Affairs Committee, and 
as you know, I do not hesitate to speak out when our veterans 
need help.
    I am holding this hearing here in Washington State because 
sometimes I cannot get straight answers from Washington, DC. In 
Washington, DC, they will tell you everything is fine. For 
months the Administration and the VA were telling me they had 
all the money they needed. They said, ``Don't worry about it, 
Patty.'' But I did worry, because every time I came home and 
talked with veterans here, I heard a much different story. I 
heard about the VA's hiring freeze. I heard about veterans 
waiting for months just to get an appointment, and I heard 
about veterans who had to drive for hours to see a doctor 
because the clinics they had been promised were not yet built.
    So, in March, I proposed increasing veterans spending by 3 
percent. It is a small amount, but it would have lifted the 
hiring freeze, reduced delays and allowed the VA to open those 
clinics here in Washington State and throughout the country.
    It is hard to believe, but my proposal was defeated not 
just once, but three times. In Washington, DC, people were 
telling me everything was fine. Well, 6 weeks ago, we learned 
the truth. Things were not fine. The VA in Washington, DC, 
admitted that it was at least $1 billion, and that's billion 
with a B, short of what it needed to care for veterans this 
year. That means many of our veterans face delays or do not get 
the care they deserve. That is wrong.
    I went back to the Senate floor and I offered my amendment 
again. This time, Members finally saw the light and last week 
the full Senate approved an additional $1.5 billion for 
veterans' health care for this year.
    I am pleased that we got the money in the end, but it 
should not have taken that long. Every day that was wasted over 
politics was a day our veterans were not treated right. That 
whole episode showed me that if I ask people in Washington, DC, 
they will tell me everything is fine. If I ask people here in 
Washington State, I learn the truth. That's the only way we can 
make sure we are taking care of the people who are taking care 
of us.
    Today, I want to hear about the challenges veterans and 
their families face as they return home. For 2 years now, I've 
been meeting with military personnel at every stage. In January 
of 2004, I met with members of the 81st Brigade right before 
they shipped out to Iraq. This March, I traveled to Iraq and 
Kuwait to meet with members of our armed services from 
Washington State. I saw their courage in the face of difficult 
and dangerous missions. Since then I have met with Guard 
members who have returned home to Everett, Spokane and Port 
Orchard. This past Monday, I met with family members at Camp 
Murray. Yesterday, I sat down with returning vets in the Tri-
Cities, and tomorrow, Thursday, I'll be meeting with more 
veterans in Longview.
    I am holding these meetings so I can build a record of what 
we need to do so when people in Washington, DC, tell me 
everything is fine I can show them what is really going on and 
push them to do the right thing.
    This hearing today will be an important part of the record 
I am assembling. For this hearing to be legitimate, we have to 
follow the same procedures that are used at hearings in 
Washington, DC. That means that testimony is limited to the 
invited witnesses. There are strict time limits, which these 
timers I have in front of me will indicate, and we have a court 
reporter here to create a formal record of the proceedings. 
Unfortunately, that means that we are not allowed to take 
questions or comments from the audience. But I want to make 
sure that anyone here has the opportunity to share their view. 
We do have comment forms available for you to fill out. We also 
have a sign up sheet so you can get updates from me as I 
continue working back in the Senate.
    In addition, I want you to know that I have created a place 
in my Web site where veterans throughout our State can share 
their stories with me. The address for that is 
murray.senate.gov. If you go to that Web site you can see a 
section where you or anyone you know can share their story with 
me.
    Now, let me explain how today's hearing is going to work. 
We are going to hear from the panels of witnesses. The first 
panel will include officials from the Washington State Guard, 
the Federal VA and the State Department of Veterans Affairs. 
They will give us a bird's-eye view of what's happening 
throughout the State and will set the stage for our discussion.
    On the second panel, we are going to hear directly from our 
veterans. I especially want to thank each of you for having the 
courage to come here today and talk in public about some very 
personal challenges. Again, I want everyone to know there are 
more chances. We will not have time to raise questions today, 
but I want everyone to know that if you have a concern that you 
didn't hear mentioned today, I want you to write it down and 
give it to my staff.
    Our third panel includes people who work directly with 
veterans who returned from Iraq and Afghanistan. They have 
received a wide range of issues veterans are facing and can 
give us a firsthand view from the ground level. When I call the 
first panel, each witness will have up to 3 minutes to present 
their testimony and then I will ask them questions. Of course, 
I want all of our panelists to know that your full written 
statements will be included in the official record. When we are 
done with each of our witnesses on the first panel, I'll call 
the second panel and then I'll go on to the third panel.
    Now, before we turn to our first panel, I want you to know 
that hearings like this can truly make a difference. Two 
summers ago, as many of you know, the VA tried to close down 
three of our hospitals here in Washington State. I worked with 
veterans throughout our State to make sure that the VA 
understood we needed these hospitals to stay open. Within a 
day, we were able to persuade the VA secretary to keep our 
hospital open. Months later, we persuaded the commission to 
save our second hospital. That left one of our hospitals in 
jeopardy, the Wainwright Medical Center in Walla Walla. I knew 
that the Senate needed to hear from the people in the local 
community who would have a harder time getting health care if 
their hospital was closed.
    So, in April of last year, I held a veterans' hearing in 
Walla Walla just like the one we are holding today. We built a 
record of the need at that hearing and then I used that record 
back in Washington, DC, to help protect that hospital. With the 
support of the veterans in Walla Walla and throughout our State 
we won. I know that a hearing like this can make a real 
difference in giving the people in Washington, DC, a dose of 
reality about what our local veterans are facing.
    The witnesses here today will help us build an accurate 
record, and I, again, want to thank all of them and all of you 
who are here today.
    Now, I want to add one thing. I know we have many veterans 
who are here in the audience today. If you are here and you do 
need help from the VA, we have representatives here onsite 
today who can help you file a claim if you need us to do that. 
You can meet with officials from the VA regional office, from 
Tri-Care and from the VA hospital. And if you need help with an 
existing claim, members of my staff are here and they may be 
able to help you file a claim with the VA.
    Now, I just want to remind everybody if you ask for 
assistance, because of Federal privacy rules, we do need a 
signed letter giving us permission to investigate your case 
before we can do anything to help. If you are here and need 
assistance with a case be sure to stop and talk with my staff 
before you leave.
    Senator Murray. With that, I would like to introduce our 
first panel who is here with us today, Major General Timothy 
Lowenberg, Adjutant General of the Washington State Military 
Department; Max Lewis, Veterans Integrated Service Network 20 
and VISN 20 within the Veterans Health Administration; 
Christine Arnold, regional director of the VA's Benefits 
Administration; and John King who is filling in for John Lee 
with the Washington State Department of Veterans Affairs. Thank 
you very much.
    General, we will start with you.

         STATEMENT OF MAJOR GENERAL TIMOTHY LOWENBERG, 
          ADJUTANT GENERAL, WASHINGTON STATE MILITARY 
                           DEPARTMENT

    General Lowenberg. Thank you. I would first like to 
recognize in the audience today, the State's most distinguished 
veterans' advocate. The first Gentleman, Mike Gregoire, and I 
would like to thank Governor Gregoire and you, too, Senator 
Murray for supporting your National Guard as we have repeatedly 
mobilized and deployed our communities' sons and daughters, 
mothers and fathers, and in some cases grandfathers and 
grandmothers to operations throughout the world, from Iraq to 
Afghanistan, to countries throughout Africa, to Cuba, to South 
America, to the jungles of the Philippines and to South Korea 
where we have personnel serving today.
    We have mobilized and deployed more than 4 times the number 
of Guardsmen in the last 3 years than were activated for the 
Korean war and the Vietnam conflict combined. And this 
represents a significant transformation not only for the Guard, 
but for all the forces from the strategic reserve to an 
operational reserve, and we are generating a recurring cycle of 
force presentations never before experienced in modern history.
    In answering our country's call, we have adopted many 
thoughtful and creative ways of taking care of our soldiers and 
the challenges our new operations tempo is putting on our 
families. In many respects, I think we have initiated some 
national ``best practices'' in the State of Washington. But by 
leaning forward aggressively we are both in a better position 
to appreciate the scope of unmet needs as well as recognizing 
the amount of work and systems changes that still need to be 
made to sustain a combat-ready force and combat-ready National 
Guard families.
    Our major focus, of course, has been on ensuring that our 
returning veterans are cycled back into family life. But we 
believe strongly that the collective commitment and support we 
put together to address that need through a coalition of 
national and state veterans organizations, private non-profit 
volunteer organizations, public service agencies, and 
employment service agencies is really a long-term solution. 
Long-term solutions are needed to sustain the needs of veterans 
as they go through a lifecycle of change in components and 
Reserve to active service, veteran's status, active combat 
service, and it is a recurring cycle not experienced in recent 
history.
    These and other solutions are within our capacity to 
conceive and develop and execute, but many of the other 
solutions can only be created by refinements to Federal policy 
and compensation authorized by decisive Congressional action. I 
would just like to briefly mention three of those in my formal 
statement.
    First, the transition assistance program. The Transition 
Assistance Program is really designed for a Cold War era force. 
Although it arguably met the needs at that time, we now need a 
revised model that focuses on a wide range of training, 
readjustment counseling and workshops that are presented both 
before the end of active service and then continued for up to 1 
year after active service. In light of the remaining time, 
Senator, I will submit my formal remarks for the record.
    [The prepared statement of General Lowenberg follows:]
    Prepared Statement of Major General Timothy Lowenberg, Adjutant 
             General, Washington State Military Department
    Good morning. For the record, I am Major General Tim Lowenberg, 
Adjutant General of the State of Washington. I would like to preface my 
remarks by thanking Senator Murray for her tireless support of our 
Guard members and their families before, during and following their 
activation for Federal military service. Thank you, Senator, for 
standing with and supporting your National Guard as we have repeatedly 
mobilized and deployed our communities' sons and daughters, fathers and 
mothers (and in some cases grandfathers and grandmothers) at home and 
abroad in support of Operation Noble Eagle, Operation Enduring Freedom 
and Operation Iraqi Freedom. From Afghanistan to Iraq to countries 
throughout the Horn of Africa; from Cuba to South America, to the 
jungles of the Philippines and to South Korea--in the past 3 years, we 
have mobilized and deployed more than 4 times the number of Washington 
National Guard soldiers and airmen as were activated for the Korean War 
and the Vietnam Conflict combined.
    The attacks of September 11, 2001 and the ensuing Global War on 
Terrorism have triggered a paradigm shift for our military--one that 
has transformed our Nation's Guard and Reserve forces from a strategic 
reserve to a fully combat ready and combat-tasked operational reserve.
    In answering our country's call, the Washington National Guard has 
greatly expanded our traditional roles and missions and we have 
responded in creative and thoughtful ways to the new soldier-care and 
airmen-care issues and to the unprecedented stresses our operations 
tempo is putting on our families. In many respects, I believe we have 
initiated national best practices in our State. By leaning forward so 
aggressively, however, we're both in a position to better appreciate 
the scope of unmet needs and to recognize the amount of work and 
systems corrections that still need to be made to sustain a combat 
ready force and combat-ready National Guard families.
    Our major focus has been on ensuring our returning servicemembers--
America's new generation of combat veterans--can quickly and smoothly 
integrate back into their family lives, employment and civilian career 
tracks and community activities. We have formed an impressive, formal 
coalition of Federal and State veterans agencies, social service and 
employment agencies, and veterans and other non-profit service 
organizations to support these new American heroes. And we believe 
strongly that the collective commitment and support of these coalition 
members is one of the most important long term solutions for 
reintegrating servicemembers and addressing their individual and family 
needs--now and throughout the remainder of their service careers.
    These and other solutions are within our capacity to conceive, 
develop and execute, but many other solutions can only be created by 
refinements in Federal policy and, in some cases, by decisive 
Congressional action. I would like to call the Committee's attention to 
three (3) such problem areas. All three revolve around the fact that 
programs, laws, policies and regulations formulated in the Cold War 
often no longer support an operational reserve force or the tempo of 
deployments we have maintained since 9/11/01.
    First, we need to review the overall Transition Assistance Program 
(TAP). Second, we need to find more innovative and effective means of 
communicating with our veterans community. And, third, we need to make 
fundamental adjustments in the legal constructs and administrative 
programs that support our servicemembers before, during and after their 
deployments for Federal military service.
    The Transition Assistance Program (TAP) is a nationally coordinated 
effort designed to assist military men and women in transitioning to 
civilian life. It focuses on employment and job training. (Public Law 
Pub. L. 101-510, sections 1142, 1143, Title X, U.S.C.; DOD Directive 
1332.35 and DOD Instruction 1332.36; Sec of Def Policy Memorandum 30 
April 2002; DOD/DVA and DOL MOU; AR 600-8-101).
    Although it arguably met the needs of a strategic reserve force in 
which the bulk of the load was carried by the active duty services, we 
now need a revised and updated Transition Assistance (TAP) model that 
is specifically tailored for the needs of today's National Guardsmen 
and reservists as they transition from extended service in overseas 
combat and stabilization missions. The revised model should include 
interpersonal and life-skills training, readjustment counseling, and VA 
briefings and workshops that are presented before the member's active 
duty tour ends, as well as training sessions and workshops that 
continue for up to 1 year after the veteran's release from active duty. 
A broad cross-section of civilians (e.g., dependents and family 
representatives), Veterans Administration officials and military 
professionals should be charged with reviewing and updating today's 
``dated'' reintegration programs.
    Second, we need to find innovative ways of educating our veterans 
about the many Federal and State benefits to which they are entitled, 
as well as the growing number of services provided by private, non-
profit public service organizations. States, for example, should be 
encouraged to form veterans outreach committees that recruit and 
capitalize upon the creative talents of the private-sector marketing 
and advertising industry. Private sector companies are, by and large, 
eager to assist military servicemembers. They simply need encouragement 
and some positive direction in channeling their energies and expertise. 
Such assistance can obviously be outsourced and contracted, but that 
option bleeds money from already under-resourced veterans services. 
We're in the early stages of shaping such an initiative in our State. I 
look forward to briefing you in the not-too-distant future on our 
success.
    Finally, many of our Cold War era laws and regulations are simply 
no longer sufficient to meet the needs of today's operational Guard and 
Reserve forces. Many of these statutes, separate and unequal pay and 
benefits regulations, and other bright-line distinctions between career 
active duty personnel and career National Guard and Reserve personnel 
no longer fit today's high operations tempo, combat ready reserve 
forces. Changes in these arcane and outdated systems would go a long 
way toward recruiting and retaining the 21st Century Guard and Reserve 
force and substantially enhance the reintegration of these veterans and 
their families following each recurring period of Federal military 
service. I refer, of course, to the separate and unequal systems of 
pay, our members' severely restricted access to medical and dental care 
and other vestiges of the Cold War era.
    With each cycle of domestic base realignments and closures, active 
duty forces are also becoming confined to a shrinking number of CONUS 
operating sites, while Guardsmen and Reserve soldiers, airmen, sailors, 
Marines and Coast Guardsmen remain scattered throughout the depth and 
breadth of America, thereby further isolating Guardsmen and reservists 
from active duty service centers, Tri-Care providers and other sources 
of traditional support for veterans.
    As we rush headlong into the 21st Century--as we answer the call of 
destiny in responding to the scourge of transnational terrorism--time 
is not our ally. We must do everything necessary to support and sustain 
a combat ready, operational Guard and reserve force now. We must 
therefore make these adjustments now. Our veterans and their families 
require and deserve nothing less.
    Thank you for your kind attention and for your personal commitment 
and dedication to America's veterans. On their behalf, I thank you for 
your sacrifice and service and for your bold statement of support in 
conducting this field hearing. I would be happy to answer any questions 
you may have.

    Senator Murray. Thank you very much.
    Mr. Lewis.

 STATEMENT OF DENNIS LEWIS, ASSISTANT DEPUTY UNDER SECRETARY, 
  HEALTH OPERATIONS AND MANAGEMENT; ACTING NETWORK DIRECTOR, 
        VETERANS INTEGRATED SERVICE NETWORK 20 (VISN 20)

    Mr. Lewis. Thank you very much. I would like to first start 
off by recognizing you for providing this forum, and for all of 
your support in Washington, and everything you do for veterans 
in Washington State and veterans in the Nation. Thank you. I 
also, on behalf of our 8,000 employees, would like to thank all 
of the veterans in the audience for your sacrifices and service 
to your country. Thank you very much.
    The core of VA's mission is a solid commitment to the 
service of those men and women who so faithfully serve our 
country. VISN 20 is honored to provide veterans, including 
those recently returning from active duty, reservists and 
National Guard troops with services designed to specifically 
address the health care needs of their military deployment.
    As you know, Washington State has contributed a large 
number of troops to service, not only in Iraq and Afghanistan, 
but around the world. Today, of those nearly 3,300 vets who 
have returned to Washington State--300 of those not within 
Washington State--about 65 percent of that number or about 
2,100 have been treated at Washington State facilities.
    Ensuring that veterans get the care that they need is an 
ongoing endeavor and it is a constantly evolving process that 
we go through, each generation is required to go through. There 
are new types of care, and there is a different expectation on 
what to expect, and there is no difference here in the 
Northwest.
    The Puget Sound Health Care System, for example, and I am 
going to tell you a little bit about some of the things that 
were done just recently to address the needs particularly of 
the veterans that are returning. At the Puget Sound Health Care 
System, the Deployment Health Clinic is the only one of its 
kind in the country. It is dedicated to caring for the unique 
health concerns related to specific military deployment. 
Beginning in September 2003, we located VHV social workers at 
the Madigan Medical Center and worked closely with our 
counterparts, the Department of Defense and the VA to help 
support the successful transition of veterans returning to 
civilian life.
    The Puget Sound Health Care System has nominated Seattle as 
the Northwest Network's Tertiary Polytrauma Center, which has 
been approved, and there will be additional resources coming to 
Seattle to help support that Center in the future. What this 
means is, Seattle will now assure throughout the network that 
veterans who have suffered loss of limbs or very severe 
debilitating injuries due to their service in the military have 
access to the same high level of care.
    In Eastern Washington, Spokane and Walla Walla have taken 
the lead with other Federal and State veterans agencies and 
organized Family Days. These are roundtable discussions held 
with veterans and their families describing in detail what 
services are available from the VA, as well as from the State 
agencies, and helping them understand what those benefits are 
and what they are entitled to.
    At the Portland VA Medical Center and its Vancouver campus, 
we are working with veterans in the southwest part of the 
State, and particularly working with the Washington State 
National Guard, in developing a new Web site that helps 
explain, again, all of the different educational benefits that 
are available not only to OIF/OEF veterans, but to all of our 
veterans.
    And finally, local VA staff has taken the initiative in 
addressing mental health. In 2004, we sponsored a very large 
comprehensive clinical update for VA as well as other folks 
outside the VA, behavioral/mental health staff and others, on 
issue of responding to trauma particularly as it relates to 
military service. The program provides an opportunity for the 
more than 330 participants to share best practices. It 
highlighted recent research and data to assist others working 
with veterans. The program is so successful that we are 
planning to hold another one for November, and it will be in 
Washington State.
    I have given you a very short overview of VISN 20's 
commitment to our veterans. There is more information in my 
testimony, and I would like to say that on behalf of the 
Network, I can assure you that we are prepared not only to meet 
the needs of veterans in other parts of the world, but to meet 
the needs of all veterans that we serve. Thank you. I will 
submit my formal comments.
    [The prepared statement of Mr. Lewis follows:]
 Prepared Statement of Dennis Lewis, Assistant Deputy Under Secretary, 
  Health Operations and Management; Acting Network Director, Veterans 
                Integrated Service Network 20 (VISN 20)
    Good Morning Senator Murray and Members of the Committee: Thank you 
for the opportunity to appear today to discuss our preparedness to meet 
the needs of returning Operation Iraqi Freedom and Operation Enduring 
Freedom veterans. I am Dennis Lewis, the Acting Network Director of the 
Veterans Integrated Services Network (VISN 20), providing healthcare to 
Northwest veterans. I am also the Assistant Deputy Under Secretary for 
Health for Operations and Management; a position I have held since July 
2002.
    I would like to recognize you, Senator Murray, for providing this 
forum to focus on our returning OIF/OEF veterans and for your 
continuing leadership and support for all veterans in Washington State.
    At the core of VA's mission is a solid commitment to the service of 
those men and women who so faithfully have served our country. The VA 
Northwest Health Network is honored to be able to provide veterans, 
including recently returning active duty, reservists and National Guard 
troops with services designated to specifically address the health care 
needs of their military deployment.
    In addition to Washington State, the VA Northwest Health Network is 
comprised of the States of Alaska and Oregon, most of Idaho, and one 
county each in Montana and California. Our 135 counties cover 
approximately 23 percent of the United States land mass. VISN 20 
consists of 6 medical centers, including 2 academic referral sites, 1 
independent outpatient clinic, 1 rehabilitation center, 19 community-
based outpatient clinics, and one mobile clinic. Other services include 
7 nursing home care units, 2 homeless domiciliaries, and 14 Veterans 
Outreach Centers (Vet Centers). VISN 20 has one of the VA's most robust 
research programs. Program areas of significance to veterans include 
limb loss prevention and prosthetics; spinal cord injury and 
rehabilitative medicine; mental health; addiction treatment; Post-
Traumatic Stress Disorder (PTSD); and deployment health programs.
    VISN 20 supports the use of Telemedicine to enhance care to our 
veterans. Telemedicine involves the use of electronic medical 
information and communication to provide and support health care when 
distance separates the provider from the patient. Because of our 
geographic distribution, we use telemedicine throughout the Network to 
increase access to our care, and find it especially useful in providing 
care for veterans in remote areas, veterans in State Veterans Home and 
those who are disabled and elderly. We use telemedicine in radiology, 
mental health, cardiology, pathology, dermatology, psychiatry, and in-
home care teleconsultations for spinal cord injury patients and for 
patients with other chronic conditions.
    In Washington State, veterans receive care at the VA Puget Sound 
Health Care System, the VA Medical Center (VAMC) Spokane, VAMC Walla 
Walla and the Vancouver campus of the VAMC Portland, in addition to 
eight community-based outpatient clinics (CBOCs) and five veterans 
readjustment counseling centers (Vet Centers). During fiscal year 2005, 
VISN 20's operating budget has amounted to approximately $1.20B, and 
the Network employs 7,966 staff. In fiscal year 2004, VISN 20 served 
194,949 veterans, a 6.6 percent increase over fiscal year 2003, making 
us first in growth within the Veterans Health Administration (VHA), 
more than double the national average growth rate. In spite of these 
increases, the Network costs grew at just 0.6 percent in fiscal year 
2004.
    As you well know, Washington State has a significant number of 
troops currently serving in Operation Enduring Freedom and Operation 
Iraqi Freedom. To date, we have seen nearly 3,300 (3,281) returning 
veterans from OIF/OEF within the Network, of whom, nearly 65 percent 
(2,131) have been treated at our Washington State facilities.
    In addressing today's topic, I would like to profile the Washington 
State facilities who provide care to our returning veterans. I am 
pleased that Dr. Stephen Hunt will be sharing information with you 
about the VA Puget Sound Health Care System (PSHCS) Deployment Health 
Clinic that follows the care of veterans (including active duty, 
National Guard and reservists) who are experiencing unique health 
concerns related to their specific military deployment. This care is 
provided even if the veteran is receiving his/her care outside a VA 
setting. As a result of Dr. Hunt's leadership, the PSHCS has become 
known as a national leader in issues of deployment health.
    The VA PSHCS, with campuses in Seattle and at American Lake 
(Tacoma) is the largest VA academic referral medical center in the 
Northwest. As a primary and tertiary care facility, the VA Puget Sound 
Health Care System provides a full range of patient care services, with 
state-of-the-art care.
    The PSHCS had approximately 612,377 patient visits in fiscal year 
2004, providing care to 59,329 veterans, throughout the State and 
across the VISN. So far this year, they have provided care to 5.7 
percent more veterans than last year at this time including 1,567 OIF/
OEF veterans.
    At our Spokane facility, during fiscal year 2004, there were 
204,915 patient visits providing care to 21,008 veterans, primarily 
from Spokane and Kootenai counties. So far this year, the VAMC Spokane 
has provided care to 8.9 percent percent more veterans than last year 
at this time including 368 OIF/OEF veterans. Spokane VA operates a 
mobile primary care clinic that visits nine remote sites (five in WA, 
three in ID and one in MT) providing follow-up care to their patients.
    At the Walla Walla VAMC, 93,643 patient visits occurred in fiscal 
year 2004. The Medical Center provided care to 12,611 veterans, 
primarily from 15 counties. So far this year, the VAMC Walla Walla has 
provided care to 196 OIF/OEF veterans. In addition to the parent 
facility, the VAMC Walla Walla operates Community-Based Outpatient 
Clinics in Yakima and Richland (Washington) and in Lewiston (Idaho).
    VISN 20 has demonstrated our commitment to the seamless transition 
of returning combat veterans. In anticipation of returning OIF/OEF 
veterans, our Medical Center employees, throughout the VISN, have been 
thoroughly trained to ensure that they can identify these new combat 
veterans, and to take appropriate steps to ensure that they receive the 
world class care they have earned.
    Since August 2003, VISN 20 has supported the placement of two VHA 
social workers located at Madigan Army Medical Center working with 
Veterans Benefits Administration (VBA), to ensure a successful 
transition for returning service personnel. These employees work 
closely with specifically assigned Points of Contact (POCs) at each of 
VISN 20's facilities and our VISN office; this active out-processing 
program has touched the lives of 2,624 individuals throughout the VISN 
since 2003 resulting in over 1,700 referrals. Our intent is to continue 
this important partnership as a means of encouraging those who are 
returning home from military commitments to pursue post-deployment 
support.
    VISN 20 is also prepared to provide specialized care for 
servicemembers and veterans. The PSHCS Spinal Cord Injury Unit (SCI) 
has provided care to four veterans transferred directly from Walter 
Reed Army Hospital. In addition, their Rehabilitation Care Service has 
provided a combination of inpatient and outpatient care to 12 veterans 
also directly transferred directly from Walter Reed.
    The PSHCS has been nominated to be the Northwest Network's Tertiary 
Polytrauma Center. The facility will coordinate the care and services 
required to meet the needs of the amputee population and assure that 
patients have access to the same high level of care across the network. 
They will be responsible for implementing care that transitions 
individuals back into their home community.
    VISN 20 is also participating in VHA National initiatives focused 
on OIF/OEF. PSHCS has been approved to develop ``VISN-Wide Outreach, 
Early Intervention Collaborative Care with DoD and State Partners.'' 
Spokane VAMC has been funded to establish ``PTSD Rural Outreach 
Services.''
    VISN 20 has taken a collaborative approach in addressing the Mental 
Health care needs for our Nation's newest veterans. In 2004, we 
sponsored a comprehensive clinical update for our behavioral/mental 
health staff and others (Readjustment Counseling Centers, Private 
Sector Health Care Systems and Agencies, other VISNs and Washington 
State DVA). The program provided an opportunity among the 330 
participants for sharing best practices. In addition, it highlighted 
recent research and data to assist clinicians as they provide care to 
veterans. An OIF/OEF Conference is currently planned for November 3-5, 
2005. The program will be comprised of three 1-day programs focusing on 
specific audiences (Primary Care, Mental Health Clinicians and Veteran/
National Guard and Families).
    Additionally, VISN 20 is an active participant in a Memorandum of 
Understanding, initiated by the Washington State Department of Veterans 
Affairs, with the Washington State Department of Defense, the National 
Guard and the Reserve to inform returning servicemembers and their 
families of their benefits and deliver the services that are needed for 
our Nation's newest veterans. Oregon has also recently entered into a 
similar agreement and one is pending in the State of Idaho.
    Senator Murray, I have provided you an overview of VISN 20 and the 
services we provide to our veterans and patients. However, it is our 
veterans who tell us how we are doing and provide us ongoing feedback. 
VHA measures patient and veteran satisfaction for both outpatient and 
inpatient care. I am proud to share with you that VISN 20 has tied 
nationally as number one for overall satisfaction for inpatient care 
(Spokane is rated number one for all VHA facilities) and we are number 
five overall for outpatient care. We also measure how long our veterans 
wait to see their providers once they arrive for their clinic 
appointment. Our goal is for them to be seen within 20 minutes or less. 
We are ranked 3rd in the Nation and continually strive to improve. As 
you can see, our veterans continue to acknowledge we are providing 
timely quality care.
    As we celebrate the VA's 75th anniversary, all of the dedicated 
employees in the Northwest Network are proud to serve the VHA mission: 
Honor America's Veterans by Providing Exceptional Healthcare that 
Improves Their Health and Well-being. I believe we have demonstrated 
and can promise that we are prepared to continue meeting the needs of 
returning veterans.
    Thank you, Senator Murray. This concludes my formal remarks. I 
welcome any questions the Committee Members may have.

    Senator Murray. Thank you very much. We will move to 
Kristine Arnold.

  STATEMENT OF KRISTINE A. ARNOLD, DIRECTOR, SEATTLE VETERANS 
               AFFAIRS REGIONAL OFFICE, VETERANS 
        BENEFITS ADMINISTRATION, DEPARTMENT OF VETERANS 
                            AFFAIRS

    Ms. Arnold. Thank you very much. I appreciate your giving 
me the opportunity to testify today on the Veterans' Benefits 
Administration's response to the needs of veterans returning 
from for Operation Enduring Freedom and Operation Iraqi Freedom 
(OEF/OIF).
    I would like to address three topics: the programs that VBA 
developed to ease the transition of veterans back into civilian 
life; the outreach efforts that VBA and Seattle Regional Office 
have made to the National Guard and Reserves; and the Seattle 
Regional Office's specific plans for recently returned 
Washington National Guard and Reserve units.
    Veterans returning from Iraq and Afghanistan, like all 
other veterans, are eligible for a full array of monetary 
benefits offered through VBA programs to assist them in 
readjusting to civilian life, and through outreach effort, to 
inform them about the many benefits and services.
    The Seattle VA Regional Office is actively involved in 
educating returning soldiers about VA benefits: helping 
servicemembers, soon to be released from active duty, with the 
processing of their claims; and ensuring their smooth 
transition back to civilian life.
    The Benefits Delivery At Discharge program, which there are 
140 based throughout the country, has been in place for almost 
10 years. In Washington State, we have Benefits Delivery At 
Discharge programs at Fort Lewis which also serves McCord, at 
Bremerton which serves all the Naval installations in the Puget 
Sound area, and Fairchild Air Force Base, as well.
    In most cases, disabled servicemembers under the Benefits 
Delivery At Discharge program receive their disability benefits 
within 60 days of discharge. Returning servicemembers, 
including members of the National Guard and Reserves, may elect 
to attend Transition Assitance Program (TAP) sessions which 
were discussed by General Lowenberg. At TAP workshops, 
servicemembers are fully briefed on the VA benefits available 
to them and are encouraged to apply.
    The Seamless Transition Initiative is aimed at helping 
returning veterans make a smooth transition back into civilian 
life. Since March 2003, a VBA OEF/OIF Coordinator is assigned 
to each military treatment facility. Since March 2003, each 
claim from a seriously disabled OEF/OIF veteran has been case 
managed for seamless and expeditious processing.
    Gene Finney, Seattle's nationally recognized OEF/OIF 
Coordinator, works with case managers at Madigan Army Medical 
Center to assure seamless transition for all servicemembers, 
particularly those identified as being either Very Seriously 
Injured (VSI) or Seriously Injured (SI). We have identified 21 
soldiers in those 2 categories. But in addition, since October 
2003, we have seen 915 injured soldiers at Madigan, 826 of 
which were either National Guard or Reserve. We coordinated 
with transition counselors from the local VA Medical Center 
regarding 547 servicemembers to ensure seamless services; we 
processed 243 claims for compensation and 152 claims for 
vocational rehabilitation.
    Outreach efforts to the National Guard and Reserve members 
take on critical importance in light of the composition of our 
forces. Return and deactivation of Reserve and Guard units 
presents significant challenges to the VA because rotation is 
irregular and servicemembers spend short periods of time at a 
military installation before being released to their Guard or 
Reserve components. For this reason, outreach efforts are 
focused at the local armories or Reserve centers within 2 
months of the unit's return.
    Washington State is unique because Fort Lewis is the major 
mobilization/demobilization point for the National Guard and 
Reserves for the whole Western United States. So we have unique 
challenges for all of those troops even if they are admitted 
off to Idaho, California, and places far away. Since March 
2003, the Seattle regional office has conducted 345 briefings 
to nearly 22,000 demobilizing OIF/OEF servicemembers. In fiscal 
year 2005, alone we have conducted 158 briefings to 11,000 
demobilizing servicemembers.
    The 81st Brigade and its associated National Guard units 
returned from deployment in Iraq beginning in March 2005. They 
demobilized through the Soldier Readiness Program at Fort Lewis 
prior to returning home. The Seattle Regional Office OEF/OIF 
Coordinator provided a Transition Assistance Briefing as part 
of their demobilization activity at Fort Lewis. And again, they 
received a full array of information about all of the benefits 
and services offered by the VA.
    The OEF/OIF coordinator maintains weekly contact with the 
servicemembers who are assigned to the 654th Army Support 
Garrison. This unit includes about 400 Guard and Reserve 
servicemembers who are recovering from illnesses or injuries 
which have resulted in an extension of their mobilization.
    In addition, the coordinator maintains weekly contact with 
the servicemembers at Madigan and its associated Medical Hold 
Unit. The purpose of these contacts is to counsel 
servicemembers on the benefits and services available to them.
    On November 5, 2004, the Seattle Regional Office signed a 
Memorandum of Understanding with the Washington State Military 
Department, the Washington State Department of Veterans 
Affairs, the Washington State Employment Security Department, 
the Veterans Health Administration, the U.S. Department of 
Labor, the Association of Washington Businesses, and the 
Governor's Veterans Affairs Advisory Committee.
    On May 26, 2005, the 70th Army Reserve Support Command 
became an MOU partner and on August 8th, coming up, we will 
sign the same MOU with the Naval Reserve Command. We have 27 
Family Activity Days scheduled through November 6th in support 
of the Washington Army National Guard. We intend to revisit 
these units within a year.
    I thank you, Senator, for the opportunity to speak.
    [The prepared statement of Ms. Arnold follows:]
 Prepared Statement of Kristine A. Arnold, Director, Seattle Veterans 
 Affairs Regional Office, Veterans Benefits Administration, Department 
                          of Veterans Affairs
    Senator Murray, I appreciate this opportunity to testify today on 
the Veterans Benefits Administration's (VBA's) response to the needs of 
veterans returning from Operation Enduring Freedom and Operation Iraqi 
Freedom (OEF/OIF).
    My testimony addresses three related topics: the programs that VBA 
developed to ease the transition of OEF/OIF veterans back into civilian 
life; the outreach efforts of both VBA and the Seattle VA Regional 
Office to the National Guard and Reserves; and the Seattle VA Regional 
Office's specific plans for recently returned Washington National Guard 
and Reserve units.
    Veterans returning from Iraq and Afghanistan are eligible for a 
full array of benefits offered through VBA. These include:
    <bullet> Disability Compensation and Related Benefits;
    <bullet> Education and Training Benefits;
    <bullet> Vocational Rehabilitation and Employment;
    <bullet> Home Loan Guaranties;
    <bullet> Life Insurance;
    <bullet> Burial Benefits; and
    <bullet> Dependents' and Survivors' Benefits.
    In addition to providing this broad range of benefits, VBA is 
reaching out to OEF/OIF veterans with programs to assist them in 
readjusting to civilian life, and with information about our many 
benefits and services. I will briefly discuss some of these assistance 
programs and then talk about our outreach efforts. My focus will be on 
outreach to members of the National Guard and Reserves.
             programs to assist returning oef/oif veterans
    The Seattle VA Regional Office is actively involved in educating 
returning servicemembers about VA benefits, in helping servicemembers, 
soon to be released from active duty, with the processing of claims, 
and in ensuring a smooth transition from military duty back into 
civilian life. The Benefits Delivery at Discharge Program, the 
Transition Assistance Program, and the Seamless Transition Initiative 
all exemplify VBA's active participation in the readjustment process.
    The Benefits Delivery at Discharge Program, or BDD, is in place at 
140 military installations around the country and overseas. In 
Washington State, we have BDD programs at Ft. Lewis, which also serves 
McChord Air Force Base, at Bremerton, which serves all naval 
installations in the Puget Sound area, and at Fairchild Air Force Base. 
Under this program, active duty servicemembers who are within 180 days 
of separation are encouraged to file disability compensation claims 
with VA staff who are serving at military bases either on a full-time 
or itinerant basis. Servicemembers can complete the necessary physical 
examinations and have their claims evaluated before or closely 
following their military separation dates. In most cases, disabled 
servicemembers participating in the BDD program begin receiving VA 
disability compensation benefits within 60 days of their separation 
from active duty, which serves to ease the transition from active duty 
to civilian status.
    Returning servicemembers, including members of the National Guard 
and Reserves, may elect to attend the formal 3-day workshops provided 
through the Transition Assistance Program (TAP), a joint effort of VA, 
the Department of Defense, and the Department of Labor. At TAP 
workshops, servicemembers are fully briefed on the VA benefits 
available to them and encouraged to apply for all benefits to which 
they are entitled. In fiscal year 2004, the Seattle VA Regional Office 
conducted 37 TAP briefings attended by 1,851 servicemembers.
    The Seamless Transition Initiative is aimed at helping returning 
veterans make a smooth transition back into civilian life. In 2003, VA 
began placing Veterans Service Representatives at key military 
treatment facilities (MTFs) where severely wounded servicemembers from 
OEF/OIF are frequently sent.
    Since March 2003, a VBA OEF/OIF coordinator has been assigned to 
each MTF. As of January 2005, over 4,500 hospitalized returning 
servicemembers were assisted through this program at Walter Reed Army 
Medical Center, Bethesda Naval Hospital, Madigan Army Medical Center, 
Eisenhower Army Medical Center, and Brooke Army Medical Center. Since 
March 2003, each claim from a seriously injured OEF/OIF veteran has 
been case managed for seamless and expeditious processing.
    Gene Finney, Seattle's OIF/OEF Coordinator, works with Veterans 
Health Administration (VHA) transition case managers at the Madigan 
Army Medical Center to ensure seamless transition for all 
servicemembers, particularly those identified as being either Very 
Seriously Injured (VSI) or Seriously Injured (SI). Either Frank Pierce, 
the Assistant Director, or I contact injured servicemembers to thank 
them for their service and review benefits and services available to 
them. We have identified 21 soldiers as either very seriously injured 
or seriously injured. Since October 2003, we have seen 915 injured OIF/
OEF soldiers at Madigan, 826 of whom were either in the National Guard 
or Reserve. We coordinated with transition counselors from the local VA 
Medical Centers regarding 547 servicemembers to insure seamless 
services; we processed 243 claims for compensation and 152 claims for 
vocational rehabilitation services.
                outreach to national guard and reserves
    Outreach to Reserve/Guard members is part of the overall VBA 
outreach program. In peacetime, this outreach is generally accomplished 
on an ``on call'' or ``as requested'' basis. With the activation and 
deployment of large numbers of Reserve/Guard members following the 
September 11, 2001, attack on America, and OEF/OIF, VBA outreach to 
this group has been greatly expanded.
    Outreach efforts to National Guard and Reserve members take on 
critical importance in light of the composition of our forces. Return 
and deactivation of Reserve/Guard units present significant challenges 
to VA because rotation is irregular and the servicemembers spend 
extremely short periods of time at military installations prior to 
being released to their Guard or Reserve components. For this reason, 
outreach efforts are focused at the local armories or reserve centers 
within 2 months of a unit's deactivation. Washington State is unique 
because Ft. Lewis is a major mobilization/demobilization point for Army 
National Guard and Army Reserve Units for the Western United States. 
Since March 2003, the Seattle VA Regional Office has conducted 345 
briefings to 21,480 demobilizing OIF/OEF servicemembers. In fiscal year 
2005 alone, we have conducted 158 briefings to 11,000 demobilizing 
servicemembers.
    In addition to these briefings and our other efforts to reach out 
in person to returning veterans, all separating and retiring 
servicemembers (including Reserve/Guard members) receive a ``Welcome 
Home Package'' that includes a letter from the Secretary of Veterans 
Affairs, a copy of VA Pamphlet 21-00-1, A Summary of VA Benefits, and 
VA Form 21-0501, Veterans Benefits Timetable, through the Veterans 
Assistance at Discharge System (VADS). Six months later similar 
information is mailed to servicemembers following discharge with a 
follow-up letter.
    Finally, VA has created a new internet Web page especially for 
veterans returning from Afghanistan and Iraq at http://
www.seamlesstransition.va.gov/. Information specific to National Guard 
and Reserves is also included on this Web page, along with links to Web 
sites with information about other Federal benefits that may be of 
interest to returning servicemembers.
   seattle va regional office plans for the washington national guard
    Beginning in March 2005, the 81st Brigade and its associated 
National Guard units returned from deployment to Iraq. They mobilized 
and demobilized through the Soldier Readiness Program (SRP) at Ft. 
Lewis prior to returning home. The Seattle VA Regional Office OIF/OEF 
Coordinator provided a Transition Assistance Briefing as part of their 
demobilization activity at Ft. Lewis. During this presentation, the 
OIF/OEF Coordinator reviewed VA benefits and services available and 
provided each servicemember with a packet of pamphlets and forms to 
assist the servicemember in applying for services. The following 
activities are already underway:
    1. Coordination with VA Medical Centers: The Seattle Regional 
Office's (RO's) OIF/OEF Coordinator maintains regular contact with his 
counterparts in all of the VA Medical Centers (MCs) that support 
Washington's veterans. When OIF/OEF veterans go to one of these MCs for 
care, the coordinators refer them to the Seattle RO for benefits. 
Conversely, the RO refers all veterans who come there to the MCs.
    2. Coordination with Madigan and the 654th Army Support Garrison 
(ASG): The OIF/OEF Coordinator maintains weekly contact with 
servicemembers assigned to the 654th ASG. This unit includes 
approximately 400 Guard and Reserve servicemembers who are recovering 
from illnesses or injuries, which have resulted in an extension of 
their mobilization. In addition, the coordinator maintains weekly 
contact with servicemembers at Madigan and its associated Medical Hold 
unit. The purpose of these contacts is to counsel servicemembers on VA 
benefits and services and assist them in the application process.
    3. Coordination of Services: On November 5, 2004, the Seattle VA 
Regional Office signed a memorandum of understanding (MOU) with the 
Washington State Military Department, the Washington State Department 
of Veterans Affairs, the Washington State Employment Security 
Department, the Veterans Health Administration, the U.S. Department of 
Labor, the Association of Washington Businesses, and the Governor's 
Veterans Affairs Advisory Committee. On May 26, 2005, the 70th Army 
Reserve Support command became an MOU partner, and on Monday, August 
8th, in a signing ceremony at the Bangor Sub Base, the Naval Reserve 
Command will become an MOU partner. The Seattle Regional Office and the 
other MOU signatories participate in Family Activity Days at their 
facilities that provide servicemembers and their families personalized 
assistance in understanding and applying for Federal and State benefits 
and services. We currently have 27 Family Activity Days scheduled 
through November 6th in support of the Washington Army National Guard. 
We intend to revisit these units within 1 year of their return from 
Iraq or Afghanistan.
    Senator Murray, I hope this testimony has given you and the 
Committee a better understanding of the VA benefits, services, and 
outreach being provided to veterans of the OEF/OIF conflicts. I also 
want to assure you that the Seattle VA Regional Office is ready and 
eager to serve the men and women coming home to Washington State. This 
concludes my testimony. I will be pleased to answer any questions you 
might have.

    Senator Murray. Thank you very much.
    John King.

 STATEMENT OF JOHN KING, DIRECTOR, WASHINGTON STATE DEPARTMENT 
                      OF VETERANS AFFAIRS

    Mr. King. Thank you, Senator, for the opportunity to talk 
with you today. We regret that John couldn't be here today. It 
is truly his leadership that has made Washington State's 
collaborative effort to the MOU a national model. Long before 
the recent homecomings, we were most concerned about how well 
we would receive those returning home. Our country could not 
afford to make the same mistakes it did when our Vietnam 
veterans returned. There isn't time today to discuss all of the 
elements needed to ensure that our veterans are taken care of. 
So I will focus on an area that is of particular interest to 
you and one that we think needs to be aggressively addressed at 
the national level.
    Year after year, we have watched the VA budget negotiation 
process. Each year the scenario is the same. The Administration 
in office proposes a budget. The veterans community responds by 
pointing out what is lacking. And the country's veterans end up 
with something in the middle. That needs to change. The 
historical budget leaves Washington always playing catch up.
    As you well know, the national veterans population is 
diminishing as the State of Washington continues to grow. You 
know, Washington is a militarily strong State. Half of those 
that discharge stay here. They like Washington State for a lot 
of reasons. What is needed is a method to deal with the VA 
budget in a forward thinking way, with a cost estimate, and it 
is not hard to do. The science is there, but the bureaucratic 
process and the old ways of doing business prevent Washington 
from ever catching up. And that makes it near impossible 
through VISN 20 and the service providers to continue to 
perform in the most excellent manner they do.
    I do know in my 8\1/2\ years in this job about the quality 
of care. It is world class care. It is about access. It is 
about being resourced. Our colleagues and peers at the Federal 
level suffer from unbelievable workloads. It needs to be a 
level playing field.
    Most recently we heard that the VA described the needs of 
Operation Enduring Freedom and Operation Iraqi Freedom Veterans 
as being an absolute priority. They were assured that VA would 
provide health care for 2 years. Unfortunately it isn't 
translating on the ground. Our veterans in the general veteran 
population are finding their waits are longer, especially for 
specialty services. Veterans from Enduring Freedom and Iraqi 
Freedom are being treated only for issues directly related to 
service in these operations. And I know the service providers 
are looking for every way possible to make them eligible, but 
they are dealing with a strained budget. This is not how that 
policy was promoted.
    Another close to home example is the success--you brought 
it up--in adding specific budget language asking the VA to open 
a community-based outpatient clinic in North Central 
Washington. There is a demonstrated need, especially in rural 
Washington. With the ongoing budget crisis, the opening of this 
CBOC has been pushed back again at a time when our soldiers are 
returning to rural areas, and community-based care is 
absolutely essential to their getting VA benefits and 
entitlements. So what are we going to do about it?
    Washington State in particular is going to put a lot more 
effort into outreach, making sure that we help eligible 
veterans get enrolled in the VA health care. As you well know 
in these tough economic times when unemployment rates are high, 
more people are choosing VA health care in spite of the long 
lines. They know it is quality care, and it is their option of 
choice and during hard economic times, in many cases, their 
only option.
    Lines may grow a little longer. What we would like to see 
is the budget process itself changed to be more prospective.
    Now, the latest news is that our current VA system is 
cutting back on mental health fees for service care. This 
affects veterans returning to rural Washington. Cutting PTSD 
services simply doesn't make sense. We know that we can make 
issues around veterans as they return home, but the young men 
and woman returning from extended deployment, 20 percent are 
exhibiting symptoms of PTSD, and another 20 percent would 
likely benefit from counseling to deal with marital issues, 
substance abuse and readjustment issues. So while we are busy 
saying we appreciate your service and sacrifice we are 
restricting access to the very services that they need the 
most.
    Throughout MOU partnership we will reach out to these 
returning veterans at 18 family activity days in August and 
September. These family activity days are opportunities for 
service providers to offer information and services not only to 
the veterans, but also to the family members who may see the 
signs that help is needed before the soldier does or admits. 
Information and assistance provided, include counseling, health 
care, mental health, employment rights and veterans' benefits.
    As an example, we held a family activity day in March. Of 
the 76 soldiers who attended that event, over 40 filed claims--
35 requesting counseling for PTSD. Not only does this tell us 
that there is a great need, it tells us that we could continue 
taking the services to them. Family activity days are the third 
direct contact as indicated by Director Arnold, yet for over 
half of those in attendance it was the first time that they 
asked for help. So it takes a while after you have been home 
and you assimilate and realize that life has changed.
    Our goal is to ensure that when they ask for help we can 
follow through by providing access to the benefits and services 
that they are entitled to. And, again, in no way do I want to 
impugn the quality of services out of the health care side or 
the benefit side. I think we have world class services here in 
the State of Washington, and the leadership will utilize all 
the resource base that they have to be able to provide all we 
need. Thank you, Senator.
    [The prepared statement of Mr. Lee follows:]
   Prepared Statement of John Lee, Deputy Director, Washington State 
                     Department of Veterans Affairs
    Senator Murray, thank you for the opportunity to talk with you 
today about the needs of our military personnel returning from extended 
deployments.
    Long before the recent homecomings, we began evaluating the needs 
of returnees from Operation Enduring Freedom and Operation Iraqi 
Freedom, We looked at everything from employment to mental health to VA 
health care. There was a common theme that ran through our discussions: 
Our country could not afford to make the mistakes that were made when 
soldiers returned from Vietnam.
    We found numerous providers ready and willing to help--all with the 
very best intentions to serve these new veterans, but there was a lack 
of coordination to ensure soldiers didn't fall through the cracks and 
efforts weren't duplicated unnecessarily.
    WDVA began serving as a benefits and service coordinator through a 
Memorandum of Understanding. This document was signed by a number of 
Federal, State, local and private partners; and to date, is resulting 
in our newest veterans, and their family members being offered 
information and assistance not once, or twice, but time and again to 
ensure we're there when they need us.
    There isn't time today to discuss all the elements needed to ensure 
our newest veterans are taken care of, so I will focus on an area where 
I think, you Senator, and other Members of the Senate Committee on 
Veterans' Affairs can make a difference--the Federal VA Budget.
    Year after year, we watch the VA budget negotiation process. Each 
year the scenario is the same. The Administration in office proposes a 
budget, the veterans community responds by pointing out where it is 
lacking, Congress battles to restore what was omitted, and our 
country's veterans end up with something in the middle.
    However, regardless of what the amount is, the budget is never 
focused on the prospective needs of veterans. The bulk of the budget is 
written based on what the VA used in the past, rather than what we know 
will happen in the future.
    A case in point is Washington State. We remain stuck in a pattern 
of being in the highest \1/3\ for veteran population and in the lowest 
\1/3\ for percentage of VA utilization.
    This historical budgeting leaves Washington always playing catch-
up. What is needed is a method to deal with the VA budget in a forward 
thinking way based on need, not on past performance.
    We've seen what happens when the VA is faced with an emergent issue 
but doesn't have flexibility in its budget to effectively deal with it.
    For example, when VA Health Care was opened to all veterans in the 
late 1990s, the VA's enrollment numbers skyrocketed, but budgets built 
on historical data rose more slowly. The result was longer waiting 
lists for primary and specialty health care and finally a moratorium on 
providing care for veterans in Priority Groups 7 and 8.
    More recently, we heard the VA describe the needs of Operation 
Enduring Freedom and Operation Iraqi Freedom veterans as being an 
absolute priority. They were assured the VA would provide Health Care 
for 2 years. This too is a great initiative. It's an initiative that 
kept the fear of repeating the mistakes of Vietnam from creeping into 
our thoughts. Unfortunately it isn't translating on the ground. Other 
veterans are finding that their waits are longer, specifically for 
specialty services, and veterans of Enduring Freedom and Iraqi Freedom 
are being treated only for issues directly related to service in these 
Operations. This was not how the new policy direction was promoted.
    This incredibly good idea is faltering because of a lack of 
prospective budgeting. And that is a shame, because we knew from the 
initial deployments how many military personnel would be returning a 
year in advance, and how many would be eligible for 2 years of VA 
Health Care.
    Another close to home example is the success you and your 
colleagues had in adding specific budget language asking the VA to open 
a Community-Based Outpatient Clinic in North Central Washington. 
Although there is a demonstrated need and it was authorized by Congress 
and the President, the CBOC still isn't open. With the ongoing budget 
crisis, it has been pushed back again. At a time when our citizen 
soldiers are returning to rural areas of Washington, community-based 
care is absolutely essential to getting them connected with VA benefits 
and entitlements.
    So, how can Washington State, where we have a demonstrated need, an 
increasing veteran population, and a lower than average utilization 
rate, continue to wait and see what the VA budget will bring each year?
    We are going to get aggressive about ensuring veterans are enrolled 
in VA health care.
    Lines may grow for a little while, but playing the budget wait and 
see game hasn't worked.
    Look at what is happening with these young men and women returning 
from year long deployments--the largest National Guard deployment since 
WWII. We know they will have short-term and long-term care needs. These 
veterans are returning to homes all over our State and are encountering 
a strained VA system.
    Now the latest news is that our strained VA system is cutting back 
on mental health fee for service care, which will disproportionately 
affect veterans returning to rural Washington.
    Cutting PTSD services simply doesn't make sense. We know that we 
can prevent many issues by wrapping a support system around veterans. 
Of the young men and women returning home from extended deployments 20 
percent are exhibiting symptoms of PTSD, and another 20 percent could 
likely benefit from counseling to deal with marital issues, substance 
abuse, and readjustment issues.
    So while we're busy telling veterans we appreciate their service 
and sacrifice, we're restricting access to the very services we know 
they need.
    I don't have all the answers; however, I will tell you that the 
system being used to appropriate money to meet veterans' health care 
needs is simply not working. In Washington we're going to aggressively 
enroll veterans in an attempt to boost our baseline and start seeing an 
increase in funding to care for those who need it.
    Through our MOU partnership, we will reach out to these returnees 
at 18 Family Activity Days in August and September alone. These Family 
Activity Days are opportunities for service providers to offer 
information and services not only to the veteran, but also their family 
members who may see signs that help is needed before the soldier does. 
(Information and assistance provided includes employment counseling and 
assistance, health care, mental health, employment rights and veterans 
benefits.)
    As an example, we held a Family Activity Day in March. Of the 76 
soldiers who attended this event, over 40 filed claims for VA Health 
Care and 35 requested counseling for PTSD. Not only does this tell us 
the need is great, it tells us that we need to continue taking the 
services to them. Family Activity Days are the third direct contact 
each of these returnees receive, yet for over half of those in 
attendance, it was the first time they asked for help.
    Our goal is to ensure that when they ask for help, we can follow 
through by providing access to the benefits and services they are 
entitled to.
    As I said in the beginning, the VA Health Care budget is only one 
component of the issues facing our returnees; however, it is imperative 
that we fix it.

    Senator Murray. Thank you very much. Thank you for all of 
your testimony. I really appreciate it. Your testimony will be 
a part of the official Senate record as well. General 
Lowenberg, let me begin with you.
    In your statement today you talked about the transitional 
assistance program that needed to be adjusted for the current 
military model. You have been with me around the State as we 
have heard from soldiers returning from Iraq and Afghanistan, 
and I am hearing a lot about medical care that gets lost in 
that transition, and soldiers paying for their own health care 
because they got lost in the system. And they are frustrated. 
Military pay that gets lost someplace. Is that all part of a 
transitional program that isn't built around a model of Guard 
and Reserve?
    General Lowenberg. The problem is widespread. It is not all 
related to the TAP program. The TAP program, I think, is 
symptomatic of systems that are predicated on Cold War models 
where the Navy, Marines and Air Force, Army--whatever--to be on 
activated Federal service, perhaps once in their career, are 
separated perhaps from that active service one time.
    Operationally, there is a continuing cycle of Federal 
service, peacetime training over an extended career. Programs 
like that aren't focused on preparing them for transition while 
they are still on active service deployed overseas. That would 
be a beneficial change. And then providing a continuum of 
support for up to a year after they have deactivated. The 
program is much more narrowly focused than that, but it doesn't 
reflect the current operational commitment of the American 
forces worldwide.
    Senator Murray. So we need to revise the transition program 
so it works for the fact that we are using it for Guard and 
Reserve soldiers differently than we have in the past?
    General Lowenberg. What I would suggest is that the VA 
convene a task force that would include attendance of family 
members, as well as Veterans' Administration officials and 
military professionals to take a look at the new dynamic under 
which we are operating and reassess what the veterans' needs 
are.
    Senator Murray. Thank you very much. I appreciate that.
    Director Lewis, in your testimony you stated the VISN 20 
Pacific Northwest network's growth rate for veterans seeking 
service. Can you tell me what is causing those rates to be so 
high particularly here in the Northwest?
    Mr. Lewis. I think there are a number of reasons. I think 
the first has to do with economics. The State has mentioned 
already there are a number of employment factors that weigh 
into this. Veterans returning home, they thought that they had 
health insurance, and they come back and they find that the 
company they worked for has gone bankrupt, or the fact that 
they do not have a job. And that is a problem that we are 
continually working with the State too, you know, some 
commitment that has been made.
    I think that there are, at least in the case of Washington 
State, more folks moving into the State who are veterans. That 
plays a role in that. I think the reputation for the quality of 
care that is being provided also plays a role in that. There 
have been a number of articles in the last year that have 
identified VA care as being the best in the country if not in 
the world. That plays a part, too. I think the communications 
that have been ongoing from the veterans service organizations, 
from the military itself, have played a large part in making 
folks aware of what benefits are available and what they are 
entitled to.
    Senator Murray. I heard John King say they were going to do 
more outreach. Are you taking into account the effect of that 
in the increased number of soldiers or veterans who are seeking 
care?
    Mr. Lewis. Yes, because we do participate in that outreach 
as well. So that is part of our early warning at this stage. 
The work last year doubled by a factor of, you know, twice what 
the national growth rate was. It slowed down a little bit this 
year. It is not quite twice now. But it is still higher than 
any of the other networks in the country.
    Senator Murray. Are you able to demonstrate that growth to 
Under Secretary Perlin and others at the VA and get increased 
funding for VISN 20 as a result of that?
    Mr. Lewis. To identify it, we do have a bearer system, and 
a bearer system is basically a historical model which 
recognizes workload as it occurred 2 years in the past. But the 
short answer to your question is Dr. Perlin was just in this 
network 2 days ago and is very well aware of the workload 
impact in this network. He actually visited Walla Walla, has 
been out there and toured the facility as well, and understands 
some of the issues that are occurring in Network 20.
    Senator Murray. And I agree he has been active in that and 
done good, but we are relying on a system that doesn't take 
into account----
    Mr. Lewis. The system does work, though. Part of that also 
plays into how the managers in these facilities operate and how 
they operated before the supplemental funding that we just 
learned about recently was coming in. The managers were already 
working on some new models for providing care.
    It is true that we have increased demand in the network, 
and that the wait is long, but they have developed some 
strategies for getting those wait lists down and we will 
continue to work with our counterparts, both VBA and the State, 
to provide timely care for those folks. And so it is always a 
balancing act.
    Senator Murray. I do believe that the system here does an 
excellent job of providing care, but they can only deal with 
the resources they have been given. I think the fact that we 
are $1 billion short this year alone says there is something 
wrong with how money in interpreted back in Washington, DC, 
based on calculations and what Congress has been told they need 
versus in reality what is happening on the ground.
    Mr. Lewis. Our headquarters in Washington are aware of 
network 20's issues and, in fact, did provide supplemental 
dollars to this network even before the Congressional votes of 
last month.
    Senator Murray. We still have work to do.
    Mr. Lewis. Yes.
    Senator Murray. So, we will work with you on that.
    Let me ask you one more question before I return to 
Director Arnold. I heard John King talk about the need for care 
in isolated areas, the clinic that we have been working on for 
North Central Washington, and the lack of access for our 
veterans. Many of these are members who have returned home to 
remote communities. What is the VA doing today to increase 
medical access and care in remote parts of Washington State?
    Mr. Lewis. Well, there are a number of activities that are 
ongoing. I have been in the--with your permission, I will 
probably call them to give you just a little bit more 
information than I can provide. But just briefly, we have 
actually allocated additional dollars both to our medical 
services primarily for mental health and PTSD in rural areas. 
About $400,000 last month went for these programs. An 
additional $450,000 was provided in July for our Telehealth 
home care coordination program in rural areas in Washington 
State and there are a number of other outreach activities that 
are going on. We have also submitted the North Central 
community-based clinic for approval in Washington.
    Senator Murray. When are we going to see that new clinic in 
North Central Washington?
    Mr. Lewis. When it is approved and when it is built are 
probably two separate questions, because it will take a while 
to coordinate the space, and award the contract and things like 
that. I can tell you that it is in Washington State being----
    Senator Murray. We will be following up on that.
    Mr. Lewis. If I could just ask Joe----
    Senator Murray. Very quickly.
    Mr. Lewis. The director in Spokane----
    Senator Murray. Actually what I would like to do is get 
your testimony for the record on that because I want to make 
sure that we have time for a few other questions.
    Mr. Lewis, I did have one other thing. Mr. King pointed out 
that Washington has one of the highest per capita veterans 
populations, but very low VA utilization. One of the concerns I 
have is, as health care itself becomes harder to access for 
many people, those who are veterans are turning to our VA 
system. Are we able to quickly adjust your budget? Should we 
see a large number of veterans coming to your system that 
weren't accessing it before, but who qualify for it?
    Mr. Lewis. I think, again, that is communication, and that 
is the VA communicating with our Congressional representatives 
and making them aware of the needs that we have to adjust the 
budget.
    Senator Murray. Thank you very much.
    Director Arnold, let me turn to you. As Regional Director 
of the Veterans Benefits Administration, can you tell us how 
well we are processing the veterans from Iraq and Afghanistan? 
Are there any delays?
    Ms. Arnold. I am very proud to announce, Senator Murray, 
that we are doing an excellent job in the State of Washington. 
We are getting very high marks nationally for this last year. 
We have veterans waiting about 5 months for a decision on their 
claim. That doesn't mean there aren't some veterans who wait 
longer, but in those cases sometimes we talk about more 
complicated claims that take us out of the process in getting 
the evidence. And specifically PTSD claims, as a matter of 
fact, take us somewhat longer to get the evidence. But in 
general, we have reduced our inventory of claims by some 3,000 
over the last 12 months. What that means to veterans is they 
are getting answers more quickly.
    Senator Murray. I am hearing from a lot of veterans as I 
travel around the State, who have returned from Iraq and 
Afghanistan and gone back to try and rebuild their businesses. 
A lot of them who had small businesses before they left are 
going under. Do you think there is a need for a new benefit for 
veterans to access small business loans through the VA?
    Ms. Arnold. I know there was legislation passed like that 
several years ago and the funds were never appropriated for it. 
So I think still that would be a great idea.
    Senator Murray. Are you aware, as I am, that there are a 
number of veterans who need services like that?
    Ms. Arnold. Yes. As a matter of fact, we in our Vocational 
Rehabilitation program have now put a special on some self-
employment. Generally before, Vocational Rehabilitation has 
been geared toward re-education, retraining type efforts to get 
a disabled veteran back into a career. But in many cases they 
want a self-employment opportunity. So we are making major 
efforts toward self-employment for disabled veterans.
    Senator Murray. Thank you very much.
    Mr. King, your Department often ends up being the broker 
between the Department of Defense and the VA in order to get 
our veterans processed. Can you tell us how well these agencies 
are working together to get veterans the help they need?
    Mr. King. I am absolutely impressed with how well the 
system is working together. That the commitment from every 
entity is there. The practice is there. It is about resources, 
Senator. You made a very important statement on the front end 
of your opening remarks, and that is we have 670,000 veterans 
in the State of Washington. I don't think you will find that 
number anywhere else but from those of us that work the 
problem. That is not the number that the VA budget is on. They 
use Census 2000 as a latest update and modeled after national 
modeling. That is part of why the State of Washington which 
experiences inordinate growth in our community is so out of 
balance with the rest of the Nation. On the east coast they are 
declining. On the west coast, especially in the Pacific 
Northwest, we are growing at a rate that other States don't 
experience.
    Senator Murray. In your remarks, you mentioned that 20 
percent of the returning vets are seeking care for post-
traumatic stress syndrome.
    Mr. King. You know, it is the early indicator. I can't say 
that it is a specific trend. But the early indicators are that 
of the young men and women returning home from extended 
deployments, 20 percent presented with PTSD, and another 20 
percent could likely benefit from counseling to deal with 
marital issues, substance abuse and readjustment issues. And 35 
out of 76 applied for help, this is a real strong indicator 
that this was very hard and it does have a huge impact.
    Senator Murray. The other thing I am hearing is a concern 
that returning Iraq and Afghanistan veterans may displace some 
of our Vietnam and Korean veterans who are trying to access 
care. Can you share with us any knowledge about that?
    Mr. King. Because we are familiar with the care initiative 
and watching the wait lines problem being aggressively 
addressed, then to find ourselves right back to where we 
started, and my concern is this. Both OEF/OIF are certainly 
issues presently in front of us, but it should not replace the 
focus on the rest of the veterans community who have served 
well.
    It is almost as if it obfuscates the issue that we thought 
was being resolved, and now it is back on our heels again. We 
are back to the long waiting lines at or beyond what it was 
before we started the care initiative. So I am not sure I 
answered your question, but the larger veteran population is 
now further in----
    Senator Murray. General Lowenberg, let me ask you a few 
more questions. How many Guard members from Washington State 
have now been deployed to Iraq and Afghanistan?
    General Lowenberg. I don't know the exact number, but it 
would be in excess of 4,000.
    Senator Murray. How many were returned injured?
    General Lowenberg. In the hundreds. We at one point had 
several hundred on medical hold at Madigan and there are 
several still, as you know from our meetings with soldiers in 
Everett and other locations, that are still part of that 
system.
    Senator Murray. I am hearing a number of concerns from them 
about the ability to access services because they are still 
under a medical care situation.
    General Lowenberg. That is correct.
    Senator Murray. One other issue I heard recently is the 
tremendous impact it has on families when Guard members serve 
in Iraq or Afghanistan for over a year, up to 14 months some of 
them. I have heard from a number of soldiers on both sides of 
the issue, but the suggestion is to shorten that length of time 
to 120 days. The impact on marriages, the impact on businesses, 
the impact on families has been tremendous. Is there a 
discussion of changing deployment for the Guard?
    General Lowenberg. There is a very active discussion. The 
focus is on shortening the ground time for Army Reserves and 
Guardsmen to something less than 12 months, and something in 
the neighborhood of 9 months is the short-term goal. In 
combination with that, the Army's deployment process needs to 
be modernized and timelines shortened. Right now, to have boots 
on the ground requires an 18-month commitment on the part of 
the soldiers, and nearly all of that is on the front end 
getting them ready to deploy.
    So recognizing we have to transition from a strategic 
reserve to an operational reserve national military strategy 
means, that we need to invest the resources in health care, and 
in training the soldiers and in helping the soldiers so that 
they are closer to ready for deployment as they reach that 5th 
or 6th year force rotation model. If we do that and reduce the 
down time, then we have a more sustainable force, and I think a 
more ready and sustainable family force.
    Predictability is the key, whether it is a 12-month 
rotation cycle, 9-month rotation cycle or shorter. If families 
know that a commitment to public service and military service--
what that cycle will be--they can adjust their lives to that 
cycle.
    Senator Murray. I think it is an important discussion, 
because I talked to one soldier in the Tri-Cities who was 
literally gone for 18 months, gone from his wife and children 
for 18 months, and stayed at home for 2 weeks feeling like a 
visitor in his own home. Now he is really struggling with 
family relationships. And we have heard from many, many 
families, and I think we need to have a serious discussion if 
this is going to be in the future about how Guard and Reserve 
are deployed because of the tremendous impact on families.
    General Lowenberg. I couldn't agree more. We had an entire 
Transportation Company from Ephrata that was extended in 
theater twice. They stayed substantially longer. So a lot 
depends on the military occupational specialty and the mission 
involved.
    Senator Murray. And this will have an impact on veterans 
because a number of the soldiers returning and the services 
they require are measurably increasing, is that right?
    General Lowenberg. It goes back to that earlier, that if 
that transitional assistance was made available while they were 
in theater reaching--you know including months of their 
activation, and to continue up to a year after they came back, 
it provides for a more stable and sustainable transition for 
the veteran and their family.
    Senator Murray. Thank you very much. I am sorry our time is 
up for this panel. But I really appreciate all of your input.
    I would like to invite our second panel. As they are coming 
forward, I am going to introduce our second panel. Specialist 
Blaine Miles Hall of the Washington Army National Guard from 
Moses Lake, Washington; Staff Sergeant Kevin Romanelli who 
recently retired from the Army and lives in East Wenatchee, 
Washington. We have Crystal Hampton. She is an Army veteran 
from Vancouver, Washington who served in Afghanistan; and First 
Sergeant Robert Kauder from the Washington Army National Guard 
who joins us from Spokane.
    Thank you all for joining us again. As I said in my opening 
remarks, I particularly appreciate all of you for coming 
forward, and for having the courage to come forward and speak 
about personal matters. I know it is not easy. I really 
appreciate all of you being here today.
    With that, Specialist Hall, we will begin with you.

  STATEMENT OF SPECIALIST BLAINE MILES HALL, WASHINGTON ARMY 
                         NATIONAL GUARD

    Specialist Hall. I would like to say that I am proud to be 
in the Washington Army National Guard. And I understand the 
possibility for deployment can occur at any time with no 
notice, and it is our responsibility to be up and ready for 
that deployment. We are told that when we come in.
    I heard a lot of positives up here on the panel, but the 
problems that the soldiers that I have dealt with and myself 
have dealt with, is not in what is available. It is how it is 
available to us. It is how the programs that you have heard in 
the legislature are actually practically applied.
    The SBA, Small Business Association, has a disaster relief 
program for National Guard Reserve small business owners that 
are being deployed. The program itself is a great program, but 
the process isn't failsafe. To prevent people from abusing it, 
the regulation in place is making it almost impossible for 
soldiers to use it.
    The first step says that you need a copy of your orders to 
start receiving those funds. You don't receive your orders, and 
as a business owner you need that money up front to train, hire 
and go over the costs for your business. And a lot of people 
think that is a benefit. It is a loan. You are also paying that 
back. So it is not like you are getting a hand me down even. 
You are paying that back and you are paying it back with a 
marginal interest rate at that.
    But to begin the process you need to have orders and they 
won't start without it. Once you have orders, your boots are on 
the ground, and you are training with your troops and you can't 
focus on your business anymore. You have to make a decision 
then whether you are closing your business or keeping it open 
hoping that the loan comes through. Soldiers don't have faith 
in those Government programs to let their affairs run like 
that.
    The second thing is you never will know when you are going 
to be deployed, but at least in our instance we were told a 
couple of times the deployment was happening and you are to 
stand down. Deployment is happening. Stand down. If a warning 
letter comes from the Department of the Army saying they are 
planning to activate, if they could get the funds available 
right away it will really help keep some soldiers--their 
financial levels and get the program started.
    For instance, the Soldiers Relief Act again requires that 
you have orders, but once you have those orders you can't be 
calling your creditors, your agencies, because you are already 
in Fort Lewis. You are training, you are going through what you 
need to focus on--the war at that time. Your time to focus on 
your family, business and financing is over. The time you have 
left to focus on your business is that 1 month when they tell 
you are going to be activated. If you don't have those funds 
and resources available to you at that point, you are just 
sitting there in the water knowing that there are these 
programs available, but you can't use them.
    The SBA Disaster Relief Program is not a disaster relief 
program. It is more of a credit-rating based. It is still a 
loan process. It is still the Government telling you whether 
your business needs better criteria. I think the only criteria 
for a loan or disaster relief should be that you are a soldier 
and that you have a business that is going to be impacted after 
your deployment.
    When I applied for a loan I didn't have tax documentation. 
My business has not been open for 2 years, so I couldn't use 
the program. I was also told that anyone who opens a business 
can determine through ESP whether your profit and loss 
statements--whether they are working or not. My profit and loss 
statements don't look profitable in their eyes. My business has 
only been open for 2 years and, of course, it is not making a 
lot of money. My credit has been overextended in that business 
and I would lose a lot if I closed.
    It just seems to me that these programs are said to worry 
more about abuse than to actually help the deploying soldiers. 
Can't they remember that we are soldiers? I mean, that you are 
going to get your money. It is the Government. You know, the 
Soldier Relief Act is a great relief Act, but it doesn't allow 
for--there is no enforcement of it. If a company doesn't apply 
for the Soldiers Relief Act, what is there to offer them? There 
isn't. But the whole time we are sitting in Iraq we are ruining 
our credit rating. Thank you.
    [The prepared statement of Specialist Hall follows:]
  Prepared Statement of Specialist Blaine Miles Hall, Washington Army 
                             National Guard
          deployment issues as they pertain to small business
    Intro: I would like to start off by saying that I am proud to be in 
the Washington Army National Guard and I understand the possibility for 
deployment can occur at anytime with little notice, and that it is our 
responsibility to keep our households and business' ready for 
deployment while we are members of the Washington Army National Guard. 
While I don't want to focus on the situation that occurred with me 
personally, I would like to focus more on the program problems 
themselves, below you will find a brief outline of my situation, the 
problems that I have found with the programs and the solutions I see 
available to make the legislature already passed a success.
    Personal Story: Opened my business in November of 2002. My business 
was turning a profit, though minimal till I was forced to close it in 
October of 2003. In May of 2003 we received notice from our command 
group that we would be deploying to Iraq within 90 days and that orders 
would be sent to us within a week or 2. Upon this notice I contacted 
the SBA Disaster relief program to start applying for a loan. I found 
out that I cannot start the process until I receive orders. Knowing the 
extensive training I was going to have to give the person I hire to 
replace me, I spent my own funds to find, hire, and train an employee 
to handle my business while I was deployed. Word came down from my 
commander at the end of June that we were no longer being deployed. I 
had to lay off my employee and continued to struggle with all the money 
I had spent coming out of my own pocket. In October of 2003 we were 
again told that we would be deploying to Iraq in November, with no 
money left to hire and train yet another employee and the SBA unwilling 
to work with me until I had orders (they did not arrive in my hand 
until December 2nd 2003). I was forced to close my business and file 
for bankruptcy.
    The Problem: The Disaster program is a great program that needs to 
be loosened to accommodate the army way of functioning. Soldiers often 
do not receive their orders until after a deployment starts and this 
does not allow a business to fund the larger costs of deployment that 
occur at the very onset. The soldiers and Sailors relief act that 
allows for soldiers to opt out of leases and drop interest rates down 
to 6 percent has no enforcement structure to enforce that lending and 
leasing agencies actually agree to comply. The SBA loan process allows 
for you to apply for the loan after you have been activated but will 
not offer a loan to you if you closed your business during the 
deployment. The SBA is also Credit Rating based, which means your 
business may be financial profitable but if the SBA determines that you 
are over extended, your business has not been open for 2 years, your 
type of business does not offer the collateral necessary to cover the 
loan, or have negative credit they will decline you for a loan. It 
seems to me that there is more of a worry that the system will be 
abused than there is a worry to actually help the deploying soldiers. 
Why can we allow these troops to go risk their lives, but cannot in-
trust them to keep their business alive for when they get back? Does it 
make sense to set rules that hinder much needed aid to soldiers in the 
fear that one or two might abuse the system?
    Suggestion for Solution: Allow soldiers access to the loan process 
before they are ordered to active duty, there should be a warning 
order, or letter of deployment issued by the army that will suffice for 
the SBA to allow the release of funds while the troops are still home 
side and able to use the money to benefit their business. This program 
should not be based on Credit Ratings or any other means other than the 
needs of the individual business and soldier. Remember that soldiers 
are government employees and that any abuse of this program can be 
deducted from their pay or taxes. Create a penalty program for any 
company that does not wish to comply with the Soldiers and Sailors 
relief act, it is incredibly easy for companies to negatively effect 
your credit report (especially while you are fighting a war over seas 
and unable to check it) but it is impossible to fix the damage once it 
has been caused, and with no Governmental help.

    Senator Murray. Thank you very much.
    Staff Sergeant Romanelli.

      STATEMENT OF STAFF SERGEANT KEVIN ROMANELLI (RET.), 
                           U.S. ARMY

    Sergeant Romanelli. Thank you for allowing me to speak. 
Again, I apologize if some of it is negative. I retired in 
February of 2005 after 26 years in service. I have got a combat 
star as a reservist in Bosnia, Kosovo, Afghanistan. I was home 
for 3 months and joined up with the unit to go to Iraq. When I 
got injured here at Fort Lewis, I encountered a lot of 
problems. One of them, the medical hold. I met a lot of 
soldiers from Washington and found out that our common problem 
is it is taking a little longer to get the care that we need 
and it is putting a financial burden on us.
    It is to the point where, I have three little girls, I 
couldn't do anything for their birthdays. My vehicle was 
repossessed. I tried to call these agencies to get answers, and 
I couldn't get them. That is what a lot of the soldiers are 
having a hard time with, Senator. And I would like my written 
statement put on the record, please.
    [The prepared statement of Staff Sergeant Romanelli 
follows:]
 Prepared Statement of Staff Sergeant Kevin Romanelli (Ret.), U.S. Army
    Good morning, Senator Murray. Thank you for inviting me to speak to 
you today on my behalf, and on behalf of fellow veterans who have faced 
challenges since their return from Afghanistan and Iraq. I will share 
my experiences with you in the hope that you will use that information 
to improve our transitions into civilian life.
    My name is Kevin Michael Romanelli Staff Sergeant (E-6), United 
States Army, Retired. I served a total of 26 years in the Army and 
Washington State National Guard. During that time I served two tours in 
Kosovo, and one tour in Afghanistan. I volunteered to go to Iraq; 
however, I was found non-deployable because of my medical condition.
    On 3 February 2005 I was placed on the Temporary Disability Retired 
List (TDRL) after the Medical Evaluation Board (MEB) at Madigan Army 
Medical Center determined that I was 30 percent disabled.
    The Medical Evaluation Board determined that I would only receive 
disabililty ratings for a fraction of my diagnosed medical conditions. 
I received a 20 percent rating for my spinal conditions (upper right 
extremity pain and weakness impinging at C-7 nerve group; herniated 
disc at C-6 and C-7; and C-6 pinching spinal cord at C-5 and C-6), and 
10 percent for my neck condition (neck pain and restricted motion with 
insidious onset during AD tour image shows large herniating at C-6-7), 
for a combined rating of 30 percent.
    I also have severe migraine headaches, chest wall lipoma, 
hypertension and hyerlipidemia. The Medical Evaluation Board determined 
that those conditions met retention standards, they did not award me a 
disability rating for them. During the time I was going through the 
Army's Medical Evaluation Board process I was told to wait until that 
process was complete before I filed my VA claim. If I had been able to 
submit the claim during my MEB process I would have received my VA 
disability rating when I was transferred to the TRDL list, which would 
have eliminated the hardships that my family and I have experienced.
    I have a claim pending with the Department of Veterans Affairs. I 
am seeking service connection for 13 separate conditions. I was 
diagnosed with all these conditions while serving on active duty. They 
include: PTSD, bilateral degenerative joint disease in my knees, 
hearing loss, tinnitus, and problems with my eyesight--which are 
residuals of an episode of Bells Palsy, herniated discs, limited range 
of motion of my neck, hyerlipidemia, hypertension, migraine headaches, 
acid reflux and a hiatal hernia. My compensation and pension exams were 
conducted by QTC. They referred me to three healthcare providers for 
tests and examinations.
    I am receiving bills from the places that QTC referred me to 
telling me that my bills are past due. I inform them that the VA is 
responsible for the bill. QTC sent me to doctor in Moses Lake who 
conducted a separate examination, he conducted an upper GI it revealed 
that I have acid reflux and a hiatal hernia. The doctor did not have my 
medical information when he conducted the exam. QTC sent me a letter 
informing me not to bring my medical records because the VA would send 
the appropriate medical records to the examining physician before the 
exam. All they sent him was a questionnaire. I brought my own medical 
records, despite their letter. This gave the doctor something to go by 
otherwise he would have had nothing. QTC also sent me to Wenatchee 
Valley Medical Center for x-rays. Wenatchee Valley had not been 
notified that I was coming. If I had not brought my referral slip the 
x-rays would not have been taken. I am being billed for $66.75; the 
bill is due on August 6, 2005. QTC also sent me to Chelan-Douglas 
Behavioral Health Clinic for my PTSD examination. (I have combat tours 
going back to 1999, Bosnia, Kosovo and in 2002 Afghanistan at Bagram 
Airfield.) I arrived there 20 April 02 to 16 October 02.
    I applied for Social Security disability and my claim was denied. 
They said that my claim was denied because they were unable to get my 
medical record. They requested information from the VA, from the 
physician Dr. Quinn where I referred by QTC and Valley Medical, no 
reports were received so my claim was denied. The denial that although 
SSA realizes that I cannot do the jobs I had done previously, because 
of my age, education and past work experience I could do other work. My 
previous work experience is as a firefighter, a Police officer and a 
heavy equipment operator. With all the pain medication I am taking, how 
could I work in this condition?
    The most difficult thing for me is the hardship that has been 
imposed on my family. We are living on $300 per month. My car, bed, 
washer and dryer have been repossessed. When I was on active duty my 
basic pay and VHA came to $4000 per month. Now, I receive 50 percent of 
my basic pay. My family of five is living on $1300 per month. My rent 
is $1000 per month, so my family is actually living on $300 per month. 
While waiting for my VA and Social Security disability claims to be 
processed I had to seek financial assistance VFW and the American 
Legion with rent and bills. I am constantly contacted by bill 
collectors who want to know when I will be able to pay them. When I 
contact the VA 800 number to find out how long it will take to process 
my claim, so that I have something to tell the bill collectors, I am 
told that I need to contact them in writing. I need the help now.
    There are many veterans living in the same situation that I am in. 
I hope that something can be done to help them. Another sergeant I know 
was discharged on November 20th. He was wounded in Iraq and is a purple 
heart recipient. His claim still is pending. On Friday he was just 
notified by QTC that his compensation and pension examination 
appointments have been scheduled.
    Other soldiers were not able to endure the challenges and 
uncertainty they experience when they come home. Three soldiers from my 
platoon have committed suicide after they were separated. One of them, 
one individual lost his home, his wife left him and his vehicle was 
repossessed. He did not have anywhere to turn. He was trying to get 
answers and he couldn't get any. I learned about his death through a 
former platoon member.
    When I came back from Kosovo, I was contacted by a VA rep 
immediately. He wants to know how I was doing and offered support from 
the VA. Unfortunately, I did not have the same experience after I was 
put on TDRL. I had no contact with anyone after the MEB. I attended a 
general VA briefing; however, no one followed up with me. When I out 
processed they sent me to Ora Robe from AMVETS. She helped me filled 
out the 21-526 on 17 March. I was notified about my first compensation 
and pension appointment 23 May 2005. I had to wait for payday. Then I 
returned and filed the claim through AMVETS.
    Things began to look up for me after I received a letter from the 
Governor who informed me about the services available to me. I called 
for help. Tom Riggs called me back and he has been helping me ever 
since. He is working with me on my claim, he has resolved my 
prescription medication issues. A lot of my problems have been resolved 
in the last couple of weeks than in the entire time that I have been 
out there doing it myself.
    Thank you again, for giving me the opportunity to testify.

    Senator Murray. Thank you, Sergeant. We will put that as 
part of your written statement. I will have a chance to ask you 
some questions in a few minutes. Thank you very much.
    Ms. Hampton.

        STATEMENT OF CRYSTAL HAMPTON, VETERAN, U.S. ARMY

    Ms. Hampton. Hello, ladies and gentlemen, directors. My 
name is Crystal Hampton. I am 26 years old from Vancouver, 
Washington. I served 6 years on active duty in the United 
States Army as a CH 26 Delta crew chief. My first duty 
assignment was at Charlie Company 159th in Fort Bragg, North 
Carolina. Then to Bravo second aviation in Korea where I spent 
2 years, and 3 months of it in a hospital in Seoul, after I was 
hit by an odeshi, by an AHAR [phon]. Then I went to K 159 
aviation, where I was deployed for 7 months to Kandahar, 
Afghanistan in support of Enduring Freedom.
    I had various assignments while I was there. I was section 
sergeant in charge of nine soldiers. I was confined to the fuel 
cell mostly because I was the smallest person to fit into the 
cell. I was also the downed aircraft recovery team leader. So I 
was a very busy girl when I was there.
    However, I want to tell you all that I loved my job, and 
serving in the military was the greatest thing that I have ever 
done. I was honorably discharged with a rank of corporal in 
September 2004. Now, when you are about to leave the Army you 
are sent to ACAP classes. Unfortunately, I don't remember what 
that stands for, but that is what you have. ACAP is where the 
active duty servicemembers are taught how to be a civilian 
again. You are sent to various different classes where you have 
to learn to write a resume, and you go to job interviews and 
you get a 30-minute block of instruction on the VA.
    I did not know anything about the VA. I learned a little 
bit about the VA loan. Nothing that really helped me. I did not 
know that I could receive benefits. None of that. The only 
reason I found that out was because Bob Cruze happened to be at 
my parents' shop one day.
    Now, thinking about this, I asked my fiance who is on 
active duty in Iraq right now, Staff Sergeant Luke, and he 
didn't know anything about the VA. And he has been in the 
service for 13 years. So he asked his officers and a few other 
enlisted, and they didn't know about it. However, they are very 
excited that this opportunity will be accorded to them, but 
still it doesn't help them.
    My point is that servicemembers coming back from war, a lot 
of times, are not aware of the benefits they can receive. And 
if we can find a way to inform these future veterans of what 
they are entitled to, it would be better for them.
    Lucky for me, Bob found me and my personal transition to 
the VA was a very good one. The people are fantastic. Being in 
the military is a physically and emotionally demanding job. 
Being a petite female with a displaced kneecap from running--
some of us aren't meant to run unfortunately--tendinitis in my 
wrist from turning wrenches and from push-ups, and some hearing 
loss due to working on helicopters for many years.
    The VA has done a wonderful job trying to accommodate me 
and my injuries. However, I feel that with more resources they 
would have an easier time processing these things. A few more 
reasons--like a veteran Ob-Gyn for females down in Vancouver. 
That would be great. Also they would be able to process 
paperwork, and processing soldiers like myself would be 
quicker.
    Finally, I feel that college grants for vets returning home 
or for the spouses of stable vets would be a considerable help. 
It occurred to me now that I am out, that I do not know how to 
do anything but work on helicopters. I remember all of it like 
it was yesterday.
    Granted that it is a good paying job in the civilian world, 
I still don't want it and I can't physically do that for the 
rest of my life. If I have no skills, I am sure that there are 
other soldiers who are in the same boat as I am. And the 
spouses of the disabled veterans who have become the primary 
breadwinners of their family, if they had training or more 
college education to get a better paying job or find a job that 
would be available to them, the stress that would be lifted off 
their shoulders would be amazing.
    In closing, I feel the Veterans' Administration has done a 
world of good for those who know about it. With a few more 
resources, what they could do would be unbelievable. Thank you 
all for your time.
    [The prepared statement of Ms. Hampton follows:]
       Prepared Statement of Crystal Hampton, Veteran, U.S. Army
    Hello Ladies and Gentlemen.
    My Name is Crystal Hamtpon. I am 26 years old and from Vancouver, 
WA. I served 6 years in the U.S. Army as a CH47D or`` Chinook'' 
Helicopter Crew Chief. My First Duty assignment was at C159th Avn at 
Ft. Bragg, NC. Then to Bco 2/52 Avn in Camp Humphrey, Korea, where I 
spent 2 Years and 3 days in a military hospital after being ran over by 
and odeshi. Then to K159th Avn at Hunter Army Airfield in Savannah, GA 
where I was then deployed to Kandahar, Afghanistan in support of 
Operation Enduring Freedom 3. Home of foot long camel spiders. While in 
the desert I had various duty assignments including Section Sergeant in 
charge of 9 soldiers. Phase Team Leader (a phase is a period of 200 hrs 
at the end of which the helicopter is give a maintenance overhaul. This 
usually takes 20 days and costs approximately $5 million). I was also 
the Confined Space and Fuel Cell Repair team leader and Downed Aircraft 
Recovery Team Leader. I was a busy girl. However, I want to tell you I 
did love my job and serving in the Army was the best thing I have ever 
done. I reached the rank of Corporal and was honorably discharged in 
September of 2004.
    When you are about to leave the Army you are sent to ACAP classes, 
(sorry I don't remember what that stands for). Acap is where they teach 
you to be a civilian again. They teach you things like how to write a 
resume and job interview skills, and finally about your VA benefits. I 
received a 30 min block of instruction about the VA which mostly 
covered the VA Loan. I did NOT learn anything. I did not know I was 
entitled to anything. I would not have known of the benefits if it had 
not been for Bob Cruze coming through my parent's oil change shop. So 
basically it's by random chance I have benefits.
    Now thinking about this. I asked my fiance SSG David Luke, Who is 
in Iraq at this time. David didn't know anything about VA and he's been 
in for 13 years. So he asked some of his officers and a few enlisted, 
and they didn't know. They were excited and relieved to hear that they 
were entitled to some benefits. My point is that the men and women 
coming back from war and serving our country are not aware of the VA, 
and what it does. We need to find a way to inform these future 
veterans, of what they are entitled to. Lucky for me Bob found me and 
made my personal transition to the VA Medical system as easy as 
possible.
    Being in the military is a physically and emotionally demanding 
job. Being a petite female in a predominately man's job definitely took 
its toll on me. I have a displaced kneecap from the running. Some of us 
were not meant to run. I have tendonitis in my wrists from turning 
wrenches and from push-ups and some hearing loss from working on the 
helicopters for 6 years. The VA has done a wonderful job trying to 
accommodate me and care for my afflictions considering the number of 
veterans they serve and the amount of resources they have. I feel with 
more resources (like better O/GYN and women's services for example) 
they could do their job better and more efficiently. They also would be 
able to process paperwork with more ease. So the claims for former 
soldiers like myself would go a little quicker.
    Finally I think that career training or college grants for the Vets 
returning home and for spouses of disabled veterans would be of 
considerable help. It occurs to me now that I'm out, I don't know how 
to do anything but work on helicopters.
    Granted that it is a good job in the civilian world, but I don't 
want it, and physically, I can't do that for the rest of my life. And 
if I have no skills, I'm sure there are many other Veterans like me. 
Also the spouses of disabled vets who have now become the primary 
breadwinners, if they were given the opportunity to go to school or get 
a better job with a little training so they could make more money to 
support their family, they would be less stressed. In closing the 
Veterans Administration does a world of good for those who know about 
it. With more resources the things they could do would be unbelievable. 
Thank you all for your time.

    Senator Murray. Thank you very much.
    First Sergeant Robert Kauder.

             STATEMENT OF SERGEANT ROBERT KAUDER, 
                 WASHINGTON ARMY NATIONAL GUARD

    Sergeant Kauder. Good morning, Senator Murray, 
distinguished members of the audience. First of all, since this 
is for the record I do need to point out I appreciate the 
promotion, but actually I am just a sergeant.
    Senator Murray. I can't do that for you?
    Sergeant Kauder. Having returned recently from a tour in 
Iraq, one thing that has struck me is on every squad patrol I 
would meet with my squad and squad leader before we go outside 
the wire. We would get together in a circle and we would talk, 
and I would let them know two things. That no matter what 
happens once we roll outside the gate that everyone would come 
home dead or alive, and no one would get left behind.
    The reason why I am here today, as I was in May when we met 
for the first time in Spokane, is I am concerned now that I am 
no longer in a position to provide for their care and training 
that my soldiers are getting left behind. Soldiers have been 
coming home with a variety of feelings, but two of the primary 
feelings that they have are guilt and shame. When I say, 
``guilt,'' what I am referring to is survivor's guilt.
    My platoon sustained several casualties. One of the men in 
my squad was killed in action in a firefight on July 9, 2004. 
It goes without saying that several battle casualties and non-
battle casualties are forcing some soldiers to rotate home, and 
be put on med hold and be put through surgeries. For the 
soldiers who didn't get wounded but stayed behind, there is the 
traditional guilt that any soldier can attest to. Why was it 
that person and not myself?
    The other thing they are experiencing is shame. Shame over 
having this emotional trauma, post-traumatic stress disorder. 
Where a soldier who has been shot or has experienced some sort 
of physical trauma can be treated with surgery, someone who 
witnesses that or is experiencing survivor's guilt, there's no 
Band-Aid. There is no surgery. There is no miracle pill that 
can cause them to stop feeling this way.
    In my experience, there are two types of soldiers. They are 
either going to face their fears, face the problems that they 
are having, the sleepless nights, the anger, the frustration 
that they are experiencing or they are not. And they are going 
to turn inward. This is the dilemma that we are going to face 
when dealing with the VA, the soldiers that seek treatment are 
going to get it. The soldiers that are not seeking treatment 
are going to turn to alcohol, turn to illicit drugs, and their 
relationships are going to fail. This is similar to what we saw 
in Vietnam.
    What we need to do is have them think out of the box. Get 
away from what I call the bottom mentality. We need to get away 
from the facilities and out into the field. We need to have 
more outreach programs to address issues, particularly in North 
Central Washington. Reach out to those people, get to the 
armories and address these situations, and address these 
concerns the soldiers have before it gets too big and we get 
into a situation like we were faced with Vietnam veterans who 
became disenfranchised. We have the resources. We need to use 
those resources to the best of our abilities to reach out to 
veterans. Thank you.
    [The prepared statement of Sergeant Kauder follows:]
     Prepared Statement of Sergeant Robert Kauder, Washington Army 
                             National Guard
    My name is Rob Kauder and I present this testimony today not as a 
National Guardsman but as a veteran with nearly two decades of service 
to his country. My comments and concerns presented here reflect my 
experiences in the process of demobilization and reintegration, 
attempting to leave the Guard as a soldier on stop-loss and the 
challenges soldiers face with processing claims through the Department 
of Veterans Affairs. The opinions expressed in this testimony are mine 
alone and should not be construed as an official position made by a 
National Guardsman.
    I am currently a news producer for a television station in Spokane, 
Washington, but for the better part of the last 18 years I have also 
served in the Armed Forces in varying capacities. Following graduation 
from high school in 1987 I enlisted in the United States Marine Corps, 
where I served on active duty for 6 years. During my enlistment I 
participated in Operations Desert Shield, Desert Storm, the United 
Nations Mission to Somalia (UNOSOM) and two counter-narcotics missions 
along the US-Mexican border with Joint Task Force-Six.
    After my honorable discharge from the Marines I went to college in 
Ellensburg and joined the Marine Reserves and served 3 years. In 1998 I 
joined the Army National Guard and have served in Charlie Company, 1st 
Battalion, 161st Infantry for the better part of the last 7 years. 
During the last year-and-a-half I have served on active duty with my 
Guard unit as part of the general mobilization of the Washington Army 
National Guard's 81st Brigade in November of 2003.
    During the last year I served as an infantry squad leader and 
participated in full-spectrum stability and support operations in and 
around the Green Zone in Baghdad, Iraq with my unit, which was attached 
to the 1st Cavalry Division out of Fort Hood, TX. I returned from the 
theater of operations on March 1st, 2005 to begin my reintegration back 
to civilian life.
    I wish I could come to you today and tell you the reintegration of 
myself and fellow members of my unit has gone smoothly; the reality is 
that a number of men in my platoon are struggling to come to grips with 
their adjustment from the combat zone to the homefront. Several men 
have left long-term relationships or are going through divorces; others 
have not adjusted emotionally to a world where they don't have to be on 
a near-constant state of alert, ready for attack from any quarter at 
any moment. At least one soldier, offered a lucrative tax-free 
contract, has gone back to Iraq with a private security firm; several 
others, struggling to cope with life back home are considering 
volunteering to go back to Iraq as well.
    On the surface, the demobilization process went fairly quickly and 
smoothly upon our return from Southwest Asia to Fort Lewis. After our 
aircraft touched down at McChord Air Force Base, we were given a flurry 
of briefings before being allowed to leave with our loved ones for 3 
days of rest and recuperation before beginning the demobilization.
    For the majority of the men the demobilization process took 
approximately 5 days. During outprocessing soldiers are given a variety 
of briefings including discussions about a myriad of support networks 
and programs available through the Department of Veteran's Affairs, but 
to be honest the briefings were nothing but a hazy blur. I paid 
attention to nothing more than checking each box on the outprocessing 
sheet and checking my watch to see how much time was left before we 
would be done and out of the Army.
    It wasn't that the information wasn't important to myself or any of 
the other men; it was just that the overriding concern among those in 
attendance was to be done with the whole process, be done with the 
seemingly never-ending red tape, be done with the active duty military 
and be back home in the civilian world.
    I would sum up the demobilization phase with a comment made by one 
of our instructors at Fort Irwin prior to our deployment to Iraq. He 
said once that war is controlled chaos and Americans thrive at war 
because we practice controlled chaos on a daily basis. Following his 
reasoning then soldiers must also thrive on outprocessing as well.
    After outprocessing, the soldiers of Charlie Company were told to 
return back to their respective platoon armories in Wenatchee, Spokane 
and Moses Lake. For some reason, there was an assumption that each 
soldier had their personal vehicles to drive to their home armories 
from Fort Lewis so no Government transport had been arranged. As a 
result soldiers had to arrange for their own transportation for 
themselves and their equipment from the demobilizationsite to their 
respective armories.
    Upon our platoon's return to the National Guard Armory in Moses 
Lake we were told that 5th Army had mandated that we were to stay at 
the armory for 2 days; there was however, no plan from what I could 
ascertain as to what exactly we were supposed to do during this period 
other than have friends, family and community members come to the 
armory for an open house. From the perspective of the enlisted man, we 
had finished our demobilization and had been told we were to spend two 
more days at our home armories with no tangible agenda other than to 
spend 2 days at our armories.
    At every other phase of our deployment while under Federal orders 
we had been provided food and lodging; for some reason when we returned 
to Moses Lake there was no contingency for providing either for the 
soldiers, which proved inconvenient for those men who did not live in 
the immediate vicinity particularly when we were told that since we 
were under Federal orders we were not allowed to stay in the armory.
    As I am writing this I realize that this week marks the 1-year 
anniversary of my original end-of-active-service (EAS) date; like 
numerous other soldiers, I was placed on stop-loss prior to our 
deployment. As I look at today's date I also realize that it has been 
almost 5 months since I returned from the combat zone and yet to this 
day, technically, I am still in the Washington Army National Guard, 
even though I had been under the assumption that all stop-loss 
personnel would be released from their National Guard service 90 days 
after their release from Federal service. I was released from active 
duty in the first week of March and finished terminal leave the first 
week in April, which would mean that the 90-day period would have 
expired the first week in July.
    Here's where the situation gets confusing.
    I talked to a soldier at the armory in Moses Lake and was told that 
I was mistaken; all soldiers including those that were on stop-loss 
were required to attend the next regularly scheduled drill weekend near 
the end of August which, for reference, would be almost 6 months 
following our release from active duty (REFRAD). It was made clear to 
me that any soldier that did not show up for this important drill 
weekend--which would include an award ceremony and a picnic--would be 
designated AWOL.
    I took the matter up with the battalion S1 (Administration) office 
at Geiger Field near Spokane and it was explained to me by the non-
commissioned officer on duty that the 90-day period for stop-loss 
personnel was incorrect; all soldiers had been extended--according to 
their orders for Federal duty--through 2031, and stop-lossed soldiers 
awaiting release from Guard service would be released when the 
paperwork was completed. No date was given as to when that would take 
place.
    So then I talked with my former platoon sergeant and he explained 
in detail that any soldier that was on stop-loss had to be released at 
the end of the 90-day period as long as they turned in all of their 
military equipment and the paperwork was finished. After talking with 
him I spoke with another soldier who I served with overseas who 
confirmed that according to my records my end of active service (EAS) 
date had been July 10th.
    My concerns about this situation are several. Over the last 5 
months, the National Guard Bureau has seen fit to send multiple 
mailings to my home filled with messages highlighting different 
programs to help with reintegration for soldiers and their families, 
messages of congratulations from various officials, and yet in the 4 
months since I finished terminal leave there has not been one letter 
explaining the final procedure for stop-loss personnel outprocessing 
out of the National Guard.
    I have taken the initiative and inquired about the procedure I have 
been given several contradictory stories as to what the procedure is 
for stop-loss personnel leaving the Guard and when I would be released 
from stop-loss. It was only through contacting someone outside my 
chain-of-command that I was able to ascertain my EAS date; nobody 
within my chain-of-command was able to give me a straight answer as to 
when I would be released from service. In summary, I would say that I 
have fulfilled my active duty obligation and received an honorable 
discharge for that service and now I am curious as to when exactly I 
will no longer be contractually obligated to the National Guard.
    After returning home and beginning my readjustment back to civilian 
life I found myself experiencing varying degrees of anger, frustration 
and stress. I've had difficulty sleeping and have experienced bouts of 
insomnia, night sweats, tossing and turning in my sleep, shouting while 
sleeping and on occasion woken up to the sound of incoming mortars that 
weren't there. I've had a hard time relaxing and have found myself 
going on-alert in an instant, my internal fight-or-flight mechanism 
triggered by the sound of a passing helicopter, a back-firing car or 
even the smell of diesel fuel.
    I realize that no man is an island, and took action to contact the 
VA and begin receiving treatment for what has been diagnosed as post-
traumatic stress disorder. While I took that step to get help, many of 
my brothers-in-arms have not. Living in backwater communities across 
eastern Washington, access to VA medical care isn't as easy for some 
soldiers as it is for those of us that live within close proximity of 
the handful of VA clinics across the State.
    The other thing to keep in mind when it comes to the VA is the 
feelings of the individual soldier, which can be summarized in two 
words: shame and guilt. Many soldiers I have served with are suffering 
in silence, unwilling to admit they are having a hard time coping with 
life back in the States. To admit they cannot cope on their own would 
be an admission of weakness to some of them. They would rather turn to 
alcohol or turn inwards and away from friends and family, reaching out 
only to their fellow soldiers who have ``been there and done that'' as 
they would be the only ones who could fully grasp the nature of their 
hidden pain.
    Some soldiers I have observed also live with a lingering sense of 
survivor's guilt; our infantry company suffered several casualties, 
including two soldiers killed and a half dozen or so wounded and 
injured. While the numbers of killed and wounded among our ranks are a 
pittance compared to, say, an infantry company on D-Day in Normandy, 
the relatively light numbers of wounded and dead doesn't lessen the 
emotional trauma these men feel.
    Unfortunately, I cannot offer any realistic solution as to what the 
VA can do to help these soldiers. They have to want to reach out for 
help, to take that first step like I did, in order to get back on the 
path to sound mental and emotional health.
    The VA right now does not have, in my opinion, an adequate outreach 
program to meet the needs of all of the veterans in eastern Washington 
returning home from Iraq and Afghanistan. The major facilities that are 
available--one in Walla Walla and the other in Spokane--are hundreds of 
miles away from where some soldiers live, making it difficult for them 
to schedule regular appointments to receive treatment. For example, 
while there are outreach clinics in Richland and Yakima, there is no VA 
support to population centers such as Moses Lake or Wenatchee. This 
means soldiers living in those areas have to travel to Seattle, Yakima, 
Richland or Spokane to receive treatment.
    The problem with this is the VA, like the military, requires 
extensive inprocessing in order to get enrolled. It took me three 
visits over a period of a month to get enrolled in the VA and another 
two visits before I met with a clinician that could prescribe 
medications to help curb the effects of PTSD. Five hospital visits over 
a 6-week period before I could receive medication isn't really 
problematic for me since I live 10 miles from the VA Medical Center in 
Spokane.
    For a soldier in Wenatchee, however, that becomes a 2\1/2\-hour 
drive one-way for a 30-minute appointment. When you take into account 
that round trip time, multiplied over time with the number of 
appointments a veteran needs in order to enroll and begin receiving 
treatment you'll find that it can be extremely prohibitive for soldiers 
living in north central Washington to receive adequate medical 
treatment.
    In the years since PTSD was first confirmed as an ailment suffered 
by veterans--and traced back to battle fatigue (World War II) and shell 
shock (World War I)--there have been numerous advances in treatment and 
medications to support veterans returning from combat. While the VA 
provides a wealth of resources, there are many other opportunities that 
veterans can take advantage of to help them reintegrate back into 
mainstream society they may not be aware of.
    For example, soldiers of Native American descent could have 
opportunities to participate in spiritual cleansing in tribal sweat 
lodges; two soldiers in my platoon were Native Americans and did this 
upon their return home from Iraq. Through my work as a TV news producer 
I've also become familiar with the owners of Hidden Creek Ranch, a 
North Idaho camp run by John Muir (a direct descendent of the famous 
naturalist) and his wife Iris. They have been running special week-long 
programs through their non-profit foundation to support relatives of 
victims of 9-11 since 2001; recent attempts to reach out to the 
military to help support family members of Iraq casualties in a similar 
fashion have been rebuffed by the military.
    I use these two examples to highlight the fact that there are other 
opportunities that exist outside the VA to support veterans and their 
families, and would say that looking into programs like these and 
others that exist outside the DoD and the VA and informing soldiers of 
their existence can only help them in their search for resources to 
help them reintegrate back into society.
    Many soldiers that I served with have come home frustrated and 
disillusioned; while a handful, lured by the opportunity of tax-free 
bonuses, have re-enlisted in the National Guard, many that I served 
with have taken off their packs, so to speak, and are done. Several 
soldiers, myself included, have decided to end their careers with the 
Guard while others who have time left in their service contracts plan 
to get out at the soonest opportunity.
    The average enlisted man feels shortchanged and harbors resentment 
toward the military for what has been done and what has been left 
undone. Many I have spoken with look at the camaraderie between the 
enlisted men as their only source of pride when it comes to our tour in 
Iraq; there is little if any esprit de corps for the National Guard or 
the Army in general. They've received the various blanket-awarded 
trinkets, hardy handshakes and thanks from a number of various, 
anonymous staff officers within the Guard and yet still feel cheated.
    In general the average enlisted man probably isn't as well-educated 
as the average officer, but that doesn't mean that these soldiers don't 
understand the world they operated in. They lament about how at times 
the Army in general seems more concerned with force-protection or 
polishing its image than accomplishing the mission or troop welfare.
    These soldiers survived a season in hell fighting unseen enemies 
and coping with life encamped in a foreign capital as part of an 
occupying army. Despite the hardships of life in the combat zone, these 
men were adequately equipped due in no small part to the billions of 
dollars spent to keep our armed forces battle-ready in Iraq. But now 
they've come home and don't have the same level of support they did 
when they were in-country.
    Unfortunately for these soldiers, the war hasn't ended yet, and the 
Federal Government has an obligation to each of these men and women to 
give them the same amount of care through the VA as they did through 
the Army.
    Therefore it is our obligation as a Nation, in order to prevent 
another generation of returning war veterans from growing disillusioned 
with our country, to reach out not with parades, trinkets and 
handshakes but with quality medical care and adequate funding for the 
VA to respond to the requests for treatment from the thousands of war 
veterans returning from Iraq and Afghanistan.
    Respectfully Submitted, Rob Kauder.

    Senator Murray. Thank you very much. I appreciate all of 
your testimony and I have questions that I would like to engage 
you on. I want to start with Specialist Hall.
    In your written testimony you talked about your business 
that you had that you lost subsequently because of the lack of 
services, and it is very compelling and I appreciate that. 
Another issue that I have heard a lot about are pay issues from 
Guard and Reserve members, especially about the Department of 
Defense's inability to pay some soldiers while they are 
deployed.
    Is this something you have experienced or anybody that you 
know has experienced?
    Specialist Hall. When we first started deployment, we had 
two soldiers in my squad who did not receive pay for 3 months.
    Senator Murray. Who did not?
    Specialist Hall. For 3 months. I don't know exactly what 
the program is called, but you go to this office. You present 
the paperwork. They will give you funds to get through until 
your pay is directed. We found out that we were unable to use 
that program because we are National Guard. Allotment programs 
and other things like that we are not allowed to use because we 
are National Guard. What we found out is that, yes, the Army 
does pay you, but that late payment for your house or that 
foreclosure notice, all those things that affect you for 7 
years, still affect you.
    I think as a National Guard, we have the benefit of being 
State employees as well as being, you know, soldiers. I would 
like to see a program where there was a relief fund for active 
soldiers so we could do it like active duty do. And say that 
private so and so hadn't been paid. Give him the amount of 
money. Because the Government doesn't have to worry about 
whether that car gets repossessed, or whether that house gets 
foreclosed or whether the kids have food to eat. Like I said, 
soldiers always get paid, but there is never a timing factor 
that the Government cares about.
    Senator Murray. So you saw a number of soldiers who were 
really stressed about families left behind who were trying to 
make house payments and get food for kids?
    Specialist Hall. It also affects the mission itself. We had 
arguments in our barracks when we were getting ready to deploy 
when people didn't stress about the situation and other 
soldiers that are trying to get them to work are all stressed 
about it. The only thing you should focus on is your job. When 
you think about your family, it should be positive and not 
worrying about them.
    Senator Murray. You have a business?
    Specialist Hall. Yes, ma'am.
    Senator Murray. You described in your testimony how you 
lost that business. Can you just relay it to me again?
    Specialist Hall. I opened up a small used book store in Gig 
Harbor. It wasn't anything drastic. I had a 5-year plan and it 
was going well toward that. But you mentioned earlier that the 
VA had signed a program for Small Business Administration that 
never was put into effect. On my level, I see that that bill 
has been signed and that program is there. As a Guardsman, I 
would not have--I am a Guardsman first--but knowing that 
disaster relief program is there or the Soldiers and Sailors' 
Relief Act is there--you go into business so that you can do 
this, this, this. I had time, the first time that I was being 
activated, to hire someone, train them, get them ready, and 
then when we were told to stand down I had to send that person 
to the unemployment line because I can't afford to keep them. 
The second time, when they say you are being activated I didn't 
have the money in my pocket anymore. The programs aren't 
useful.
    Senator Murray. So you subsequently lost your business, is 
that correct?
    Specialist Hall. Yes, ma'am.
    Senator Murray. So I am hearing you say that you would very 
much support a program similar to the AD loans, the small 
business loans, that are directed to National Guard members?
    Specialist Hall. But those programs have to be set up 
without all the crud that goes along with it.
    Senator Murray. Crud is not an official word just so you 
know.
    Specialist Hall. Without all the--you have to meet these 
criteria. If you are a soldier you are a soldier. And if you 
are a business owner you are a business owner. Nobody should 
tell you if your business is well enough to keep it alive. And 
SBA is there to help you.
    Senator Murray. Thank you very much. I appreciate that.
    Staff Sergeant Romanelli, in your testimony you were quite 
eloquent about the number of medical conditions that you faced 
and the gap faced in medical care from having to provide for 
your own care now that you served your country for, I believe 
you said--how many years?
    Sergeant Romanelli. Twenty-six years.
    Senator Murray. There was a Government Accountability 
Office report that outlined many of the problems that you 
talked about in your written testimony. It focuses directly on 
Guard members who need medical expenses in order to keep 
accessing military hospitals, and they just aren't processed in 
time. That report cites an inability by the Department of 
Defense to process Guardsmen and women that leave. Many that 
fall through the cracks just like you have.
    Can you describe for us what happened to you after 26 years 
of service, the medical conditions that you experienced and 
what your battle with medical care has been?
    Sergeant Romanelli. Basically, the injuries that I 
sustained is a pinched nerve in my neck and also in my spinal 
cord. So, at times, my body gets real numb. I am on a lot of 
pain medication. That is about the only way I can survive. I 
wound up spending almost 2 years at Fort Lewis in a medical 
hold going through this process. A lot of the problems that we 
were having there is you go to the facilities, and the first 
thing they hit you with is, are you Army or are you National 
Guard? The issue is brought up through the chain of command to 
the General.
    And General, I personally want to thank you for helping us 
with that problem. I live in East Wenatchee, because like the 
other distinguished guests, I like Washington. I am from 
Nevada. I love this place up here. This is nice. But my biggest 
concern is trying to get the care that I need. Through going 
through the med board and then trying to transition in with the 
VA, if there is a way we can make them both go at the same time 
a lot of the problems would not be happening.
    Some of my fellow soldiers call me, and I have been 
saddened to find out that one of my fellow soldiers got out 
November 20th and he is now just starting his appointments 
through QTC, which is a company that the VA uses to verify all 
our claims. It has taken me a while to get through that system 
and I finally did it.
    Senator Murray. You are there now?
    Sergeant Romanelli. I am there.
    Senator Murray. It has taken you a long time. And I am 
hearing this from a lot of Guardsmen and women who come back. 
That medical extension prevented them from getting the medical 
care they need. And there are people who tell me this problem 
has been solved, but clearly in your testimony----
    Sergeant Romanelli. It still has a little ways to go, 
Senator, before it would be solved.
    Senator Murray. When did you first feel like things were 
going in the wrong direction?
    Sergeant Romanelli. Beginning of April.
    Senator Murray. Of this year?
    Sergeant Romanelli. Yes, ma'am, this year.
    Senator Murray. What options do you have right now to 
resolve the situation?
    Sergeant Romanelli. I, basically through a letter that I 
received, was put in touch with a gentleman by the name of Tom 
Riggs. Tom has been working with me constantly on the phone 
talking to me and he has gotten things moving a lot quicker. We 
have got some other issues to address that have come up, 
perhaps we can meet with you, and hopefully we can get them 
resolved with the help of our distinguished guests that are 
here today.
    Senator Murray. When were you first separated?
    Sergeant Romanelli. February 25, 2005.
    Senator Murray. And it has taken you this long to get 
anywhere getting medical services?
    Sergeant Romanelli. Yes, ma'am.
    Senator Murray. What do you think should have happened? 
What can we do better so that people don't fall through the 
cracks?
    Sergeant Romanelli. Basically, what they did in any case, 
Senator, when I got my medical they said go through med board 
process first, then you will deal with the VA. If there is a 
way you can go through med board and VA process at the same 
time, that way you transition out of one right into the other, 
that would work great.
    Senator Murray. And that does not happen today?
    Sergeant Romanelli. No.
    Senator Murray. I have another question for you. If you 
feel comfortable answering I would appreciate it. In your 
written testimony you mentioned three veterans from your 
platoon have committed suicide. That is really disturbing. If 
you feel comfortable, I would appreciate it if you could 
elaborate on those stories so I can have a clear understanding 
of how we can prevent that from happening to others.
    Sergeant Romanelli. I will try, Senator. It is hard, 
because we spent almost a year-and-a-half together. They were 
going through the med board process. They got med boarded out, 
and with our percent from you get a little bit to live on. Like 
in my case I went from $4,000 a month to $1,300 a month. My 
rent is $1,000. I am running a family of 5 on $300.
    My friend wound up in the same situation. That caused a lot 
of stress at home. His wife wound up leaving him. They 
repossessed his vehicle. They foreclosed on his house. And we 
didn't keep the tight knit that we had before and he wound up 
killing himself. And it is sad.
    I have got two other soldiers that wound up doing the same 
thing because they are not getting the financial help that they 
need when they need it, and getting the answers that we need, 
we weren't getting. And that is what happened to them, Senator.
    Senator Murray. Thank you very much. I really appreciate 
your sharing that with us.
    Sergeant Romanelli. I thank you, ma'am.
    Senator Murray. Crystal Hampton, in your testimony you 
mentioned that while you were on active duty you had no idea 
that VA benefits were available. And I hear that from many, 
many soldiers. I hear they come home, they are separated and 
they want to come home, and all that is basically put in the 
back seat of your car until you remember that it is there.
    What can we do better so that Guard and Reserve members 
when they come home know what services are available?
    Ms. Hampton. Well, ma'am, I had to make the decision I 
would--as far as the active duty goes, I am not sure about the 
National Guard Reserve, but we have quarterly classes that we 
have to take. They are mandatory. You sign the block, put your 
name there and it goes in your company's files, and it goes up 
higher until it is observed that your entire company is 100 
percent. Things like EO, equal opportunity, or SDOSH [phon]. I 
think it is a political organization. Things like that. If the 
VA had a quarterly block that all soldiers had to go to, had to 
attend, then I think the word would be out there. You can only 
ignore a class so many times before you finally start either--
randomly gets in there or it is going to be learned, you know.
    And we had started training on my unit every Thursday. You 
had sergeants training two times a month. It was learning 
things that your squad leader felt you needed to know about. If 
your squad leader felt you had to know about VA that squad was 
going to know about VA. Do you know what I am saying?
    Senator Murray. Yes.
    Ms. Hampton. So those are two areas that the word could be 
gotten out a little bit. I think during my ACAP briefs I was 
given a little bit more than 30 minutes and actually explained 
how important this was to me instead of you get a VA loan and 
if you have certain disabilities you might get benefits, OK.
    Well, at the time I didn't really hear because I was 
getting out of the Army and I was going home. Great. If the 
person who described that to me actually sat down for longer 
than 30 minutes and said, you know, all of you guys, look, if 
you pay attention to this and pay attention to me you are going 
to get benefits and you will not have the stress of trying to 
pay for health care that you can't afford or any of that. 
Because none of us realize that once I get out I can't just go 
to the doctor anymore. I can't just go to the dentist. It never 
occurs to you until you are there. So those are some of the 
suggestions that I have.
    Senator Murray. Thank you very much.
    Sergeant Kauder, I have listened carefully to your fellow 
panelists here talk about that financial gap that hits soldiers 
when they are brought home and sent back to their communities. 
You talked a lot about rural communities and lack of access, 
and whether you lose your business, or your finances are just 
in terrible shape, or whether it is over medical care or just 
trying to get a job. Crystal talked about lack of employment 
services, and what is she going to do now and those kinds of 
things. That is even more critical in rural communities and for 
those who live close to them.
    Can you talk a little bit more about the pressure it puts 
on soldiers when they come home, go back to their communities 
and they have this big gap in services where they just don't 
have the finances that allow them to get back on their feet, is 
what you were saying?
    Sergeant Kauder. I think the primary problem that soldiers, 
at least from my unit, are facing is like you were saying, the 
gap in coverage. I can't really speak about the financial 
problems soldiers are having as much as the problems getting 
connected with the VA services. I was with the 81st Battalion, 
161st infantry which is headquartered out of Spokane--had some 
geographically diverse armies. We are located in Spokane, 
Wenatchee and Moses Lake. Just looking at the two armies, for 
example, I was based out of Moses Lake and our second platoon 
is in Wenatchee. Those two locations have no service available. 
There is no VA or medical center or outreach center that we are 
aware of. And I say that because we did attend the briefings 
and check the appropriate boxes during the demobilization 
process.
    I will say I have received numerous flyers in the mail both 
from the National Guard as well as from the VA talking about 
the benefits that are available. But the problem is that for 
soldiers who are living in remote locations like Omak, 
Okanogan, Wenatchee. They are faced with a 2- to 2\1/2\-hour 
drive to the nearest clinic in order to receive support.
    My experience in processing into the VA system is when I 
had to go to a physical. I had to go through a battery of 
tests. Altogether, to make a long story short, it was six 
appointments. Now, I live 10 miles away from the VA Medical 
Center in Spokane. That happened over a 2-month period in order 
to get processed in. Now, imagine a soldier in Wenatchee of 
which there are approximately 40 that I am aware of from my 
unit. Someone that needs to process a claim or get enrolled in 
the VA and get treated for whatever ails them, that is a day. 
That is 1 day for one appointment for \1/2\-hour or 45-minute 
appointment. And that has proven problematic to those soldiers 
who live in those remote locations because it is difficult 
getting back on your feet as these other panelists have 
discussed. You have got reintegration, reunion with family 
members, trying to get back on your feet, and then add to that 
several times out of the month you are completely out of the 
loop trying to get services in a city several hundred miles 
away.
    Senator Murray. Thank you. I wanted to ask you because in 
your written testimony you talked about the impact of stop-loss 
orders. I just wanted to clarify from your statement no one has 
ever explained to you how and when the stop-loss will be 
lifted?
    Sergeant Kauder. No. We returned from the theater of 
operations on March 1st. So 5 months ago, Monday. Since I came 
back we went through the demobilization process which takes 5 
days at Fort Lewis. We were then placed on terminal leave, all 
the leave that we accrued during our tour. So that was 
approximately 30 days. Stop-loss, at least according to my 
platoon sergeant and several others that are well versed in 
these matters, ends 90 days after your active duty ends or what 
they call RFAD, release from active duty. That would have been 
April 9. Now, that would--extending out 90 days would be July 
10.
    Since April 9, I have received numerous mails, discussing 
information about VA benefits and about family support days 
that the VA organize. I have received messages from Brigadier 
General Tony expressing his personal thanks for my service and 
all of the things that the Army is doing in transitioning into 
the 21st century, mostly about re-enlisting.
    To make a long story short, again, I have received a lot of 
mails. Not one message talks about stop-loss. I have had to 
take the initiative to find out what was going on through my 
chain of command and then finally outside of my chain of 
command to get a straight answer.
    Senator Murray. Do you know the answer to your question 
now?
    Sergeant Kauder. At this time I have got four or five 
different answers.
    Senator Murray. Essentially because you don't know when 
that stop-loss is going to be lifted?
    Sergeant Kauder. The problem is there are two situations 
here. Stop-loss for me, the end of my service date was 
technically July 10. But in addition to being stop-loss, 
because my original service date was last July, I have also 
been involuntarily extended. That has not ended yet. As a 
matter of fact, anybody that was placed on stop-loss and was 
involuntarily extended, the orders--and this was just kind of 
my understanding based on briefing that I received during the 
mobilization phase, was that we were being involuntarily 
extended until 2031. But that was just explained to us in our 
official documentation that is just to cover our bases.
    Technically, I am still on active duty even though I have 
served and received an honorable discharge for my active 
service. But I am still obligated to serve in the National 
Guard until such a time as they officially cut my orders and 
release me from National Guard service.
    Senator Murray. What kind of impact do you think that has 
on servicemembers to know that the National Guard intends to 
keep them as long as 2031?
    Sergeant Kauder. I can only speak for myself. I can't 
speculate as to what other soldiers feel. But as I heard some 
chuckling in the audience, when I heard that I was going to be 
involuntarily extended through 2031 I had to laugh myself. For 
me I have got almost two decades of service, but I have decided 
not to finish and close, and force retirement and put in 2 
years of service for my own personal reasons. My understanding 
was that I would do my time. I would serve and I did. And I 
served honorably and received a discharge from the active duty 
Army for my service.
    It has now been close to 6 months since I finished, and as 
of July 10th I should have been--at least my understanding--
released from service. That has not happened yet. And like I 
said, I received at least five different indications as to why 
I am being kept on involuntary extension. I would like to know 
why. I would like an official policy statement. I would have 
liked some proactivism on the part of the National Guard 
telling me here are the boxes you need to check as far as 
turning in gear and supplies, getting counsel as far as your 
decision not to stay in the National Guard. But none of those 
things happened.
    I think the National Guard, in my personal opinion as a 
veteran, needs to be a little bit more proactive in supporting 
soldiers not only who are staying in, but also soldiers who are 
opting to get out.
    Senator Murray. Let me ask you one other question. I know 
time is running out here. You have had quite a lot of contact 
with the soldiers in your platoon since you returned. Can you 
tell me anecdotally how prevalent you think post-traumatic 
stress syndrome is among our soldiers returning from Iraq and 
Afghanistan?
    Sergeant Kauder. I think it is fairly prevalent. I had 
numerous opportunities to be at a dedication for the new VFW 
hall down in Tri-Cities which was dedicated to Jeremiah Slunk, 
a soldier who was killed. We also got together on July 9, the 1 
year anniversary of his death in a firefight south of Baghdad. 
On both occasions we had 20 or 25 fellow Guardsmen that we 
served overseas with.
    I have seen signs of soldiers going through relationship 
problems, at least one divorce, several broke-up relationships 
with long-term girl friends. One soldier is--I hate to say it, 
but he is on assault charges and possibly faces some jail time. 
It is prevalent, but like I said in my written testimony, many 
soldiers aren't facing it. They are not dealing with it.
    Senator Murray. OK. Thank you very much. I really 
appreciate all of your written testimony and verbal testimony 
today. And thank you very much, again.
    We now have our third panel who is going to join us, and I 
would like to welcome them up to the table. I will introduce 
them as they are coming forward. We have Dr. Steven Hunt who is 
the director of the VA's deployment clinic within the Puget 
Sound Health Care System; Dr. Ronald Boxmeyer who is the team 
leader at the Seattle vet center; Linda Holt who is a tribal 
council member in the Suquamish Tribe; and Colonel Mary Forbes 
who is human resources director at the Washington Army National 
Guard. Thank you all for coming today and participating in this 
Senate hearing.
    Dr. Hunt, we are going to be hearing from you first.

 STATEMENT OF STEPHEN HUNT, M.D., DIRECTOR, DEPLOYMENT CLINIC, 
                PUGET SOUND HEALTH CARE SYSTEM,
                 DEPARTMENT OF VETERANS AFFAIRS

    Dr. Hunt.  Good morning, Senator Murray. I am a physician 
and director of the Deployment Health Clinic at the Puget Sound 
Health Care Center. VA Puget Sound is the largest VA medical 
center in Washington State. It serves as the main referral 
center for tertiary care. In my clinic I have evaluated and 
continue to follow medically over 200 combat veterans who 
returned from service in Iraq and Afghanistan and I see 
returning veterans every day.
    I would like to thank the Senate Veterans' Affairs 
Committee for providing this opportunity to share information 
on work that is being done to meet the needs of combat veterans 
returning from Afghanistan and Iraq. I would like to thank all 
the veterans present and particularly the four of you who just 
testified. For me it really brought this room back to what this 
is all about today, the struggles and needs of returning 
veterans like the ones who are here today.
    We have learned about the impacts of war on military 
personnel. We know that combat may cause physical injuries and 
wounds. We have learned that war causes psychological traumas. 
It can cause emotional wounds. We have learned that war may 
involve toxic environmental exposure. This can cause health 
effects. We have learned the complex and challenging 
environment of the war may result in a multitude of unexplained 
symptoms and other health changes.
    We know now that if you are involved in combat it may 
affect your body, mind, and spirit. We understand it affects 
not only the veterans, but also the veteran's spouse, the 
veteran's children, the veteran's extended family, and the 
veteran's community.
    We have learned a great deal about how to treat wounds. We 
are better able to treat wounds on the battle field. Better 
able to evacuate the wounded. We are better able to 
rehabilitate people with head injuries, spinal injuries and 
amputations. We are better able to treat PTSD, depression, 
panic attacks and anxiety disorders that may result from 
combat. We have better rehabilitation programs and social 
services.
    We know what we need to know about the impacts of war on 
individuals. Now we must do what needs to be done to meet the 
needs of these veterans returning from Iraq and Afghanistan. 
There are three necessary components for the care of returning 
combat veterans. The care must be accessible. They must know 
about it. The care must be integrated care: mental health and 
physical health care. The care must be comprehensive and the 
care must be ongoing.
    To meet the needs of returning combat veterans VA Puget 
Sound and VISN 20 deployed the Deployment Health Clinic, a 
multi-disciplinary clinic dedicated to the care of veterans 
with health concerns related to a specific deployment. In this 
case, veterans returning from combat. Essentially the 
deployment health clinic provides post combat evaluations and 
follow-up treatment.
    In the Deployment Health Clinic, veterans receive a 
comprehensive evaluation including post combat assessment, 
which takes into account all of their combat theater 
experiences, a physical examination, a mental health 
evaluation, benefits counseling, and assistance with 
compensation and pension claims. They can then continue to 
receive their primary medical care and mental health follow-up 
through the clinic where we will help them to coordinate care. 
Individual treatment, group treatment, marital counseling, and 
subspecialty referral are all available. Female providers and 
liaison with the Women's Clinic are available for female combat 
veterans. The purpose of the clinic is to address and support 
veterans in all aspects of life that have been affected by 
their combat experience.
    It is not just a matter of do you or do you not have 
physical wounds? Do you or do you not have PTSD? There is a 
very complex impact that this experience can have on 
individuals. It is essential to provide comprehensive support 
in an accessible and integrated way. We want to provide that 
support in an ongoing way. Not just an initial examination, and 
a pat on the back and thanks, but ongoing care for the first 2 
years after returning at a minimum. We want to provide that 
support to the veterans and their families so that they can 
readjust, recover and be optimally functioning in all areas of 
individual and family life as soon as possible and for the long 
term.
    To date, 250 new returning military veterans have been seen 
in the Deployment Health Clinic. They have received both a 
physical and mental health assessment as part of their post 
combat evaluation. Many of them are receiving ongoing care. 
They have also received support on benefits issues. 
Approximately 400 individuals have contacted the clinic to 
receive other types of assistance and referrals.
    We have heard testimony on other services available at VA. 
I would highlight the PTSD services which we are offering to 
returning veterans. We have a multitude of PTSD services, and 
joining me today is Dr. Miles McFall who is the head of our 
PTSD program.
    I want to conclude by thanking the veterans and their 
families present today for their service, and thanking Senator 
Murray, the Senate staff and those of you in attendance today 
for your interest and support of our returning combat veterans. 
It is our national responsibility to collectively embrace and 
to ultimately succeed in this mission. That concludes my 
testimony and I will submit that.
    [The prepared statement of Dr. Hunt follows:]
Prepared Statement of Stephen Hunt, M.D., Director, Deployment Clinic, 
     Puget Sound Health Care System, Department of Veterans Affairs
    Good Morning, Senator Murray, my name is Dr. Stephen Hunt. I am a 
physician and director of the Deployment Health Clinic at the VA Puget 
Sound Health Care System. VA Puget Sound is the largest of the VA 
medical centers in Washington State and serves as the main referral 
center for tertiary care. This integrated delivery system is the result 
of thorough financial planning, clinical program integration, expanded 
access and coordination of care among the five VA facilities located in 
the States of Alaska, Idaho and Washington.
    VA Puget Sound Health Care System had approximately 612,377 patient 
visits in fiscal year 2004, providing care to 59,329 veterans, 
throughout the State and across the VISN. So far this year, we have 
provided care to 5.7 percent more veterans than last year at this time 
including 1,567 OIF/OEF veterans.
    In my clinic I have evaluated and continue to follow medically over 
200 combat veterans who have returned from service in Iraq and 
Afghanistan. I see new returning veterans daily in my clinic.
    I would like to thank the Senate Veterans' Affairs Committee for 
providing this opportunity to share with you this information on work 
that is being done to meet the needs of combat veterans returning from 
Iraq and Afghanistan, and would like to thank you all for attending. I 
would particularly like to thank any veterans present for their service 
and their continued input into this most important issue--providing 
care for those who have served.
    Through the experiences and struggles of returning combat veterans 
over the years, we have learned about the impacts of war on military 
service personnel. We have learned that war often involves combat that 
may cause physical wounds and injuries. We have learned that war may 
frequently involve psychological traumas that may cause emotional 
disturbances. We have learned that war may involve toxic environmental 
exposures that may cause acute and chronic health effects. We have 
learned that the complex and challenging environment of war may result 
in medically unexplained symptoms.
    We now know that being involved in combat may affect a person's 
body, mind and spirit. We understand that these effects impact not only 
the veteran, but also the veteran's spouse, the veteran's children, the 
veteran's extended family and the veteran's community.
    We have learned a great deal about how to treat the wounds of war. 
We are better able to treat wounds on the battlefield, better able to 
evacuate the wounded, better able to treat and rehabilitate individuals 
with spinal cord injuries, head injuries, and amputations; we are 
better able to treat post-traumatic stress disorder (PTSD), depression, 
panic attacks and anxiety disorders. We have better rehabilitation 
programs and social services.
    We know what we need to know about the impacts of war on military 
personnel. Now we must do what needs to be done to meet the needs of 
the individuals returning from Iraq and Afghanistan. There are three 
necessary components to meeting the needs of returning combat veterans: 
the care must be integrated, the care must be comprehensive and high 
quality, and the care must be ongoing.
                            integrated care
    The Department of Veterans Affairs (VA) and the Department of 
Defense (DoD) have developed an increasingly effective partnership to 
meet the needs of our newest veterans by assisting them with a smooth 
transition from active duty to civilian life.
    It is our joint goal to ensure that every serviceman and woman 
returning from combat receives prompt consideration and world-class 
service. Together, the VA and DoD are finding ways to move records more 
efficiently between the two agencies; ways to share critical medical 
information electronically; ways to protect the health of troops 
stationed in areas where environmental hazards pose a threat; ways to 
process benefits claims quickly and efficiently; and, in all ways 
possible, to hold open the doors to an uncomplicated passage from 
soldier to citizen.
                         benefits and services
    Veterans, including Reserve and National Guard members, who served 
in a theater of combat operations are eligible for hospital care, 
medical services, and nursing home care for injuries or illnesses that 
may be related to combat service for a period up to 2 years beginning 
on the date of discharge or release from service.
    This 2-year eligibility for medical care is available even if there 
is insufficient medical evidence to conclude that the veteran's illness 
is the result of combat service. At the end of the 2-year period, these 
veterans can continue to receive free health care for injuries and 
illnesses officially connected to military service.
    In addition to health care, VA offers a spectrum of programs for 
veterans, including disability compensation, vocational rehabilitation, 
prosthetic services, life insurance, pension, education benefits, 
specially adapted housing and automobile grants, and survivor and 
burial benefits. VA programs for veterans with a service-connected 
injury or illness apply equally to those who served in the regular 
active duty forces and to National Guard members or reservists 
returning from Federal activation.
    VA Puget Sound Health Care System and VISN 20 were leaders in 
establishing a seamless transition program based at Madigan Army 
Medical Center (MAMC), where two VA social workers are working full 
time/side-by-side with MAMC personnel as discharge planners, to ensure 
a smooth transition to VA services at locations nearest to the 
veteran's residence after discharge. Through this coordination, the 
veterans are known at the local VA facilities that process their 
benefits claims, and continuity of their medical care, including 
medications and therapy, is ensured.
       va puget sound health care system deployment health clinic
     Unique to VA Puget Sound and VISN 20 is the Deployment Health 
Clinic. The Deployment Health Clinic is dedicated to the care of 
veterans who are experiencing health concerns related to a specific 
deployment.
    When veterans come to the Deployment Health Clinic, they receive a 
comprehensive evaluation including post-combat assessment, physical 
examination, mental health evaluation, benefits counseling, and 
assistance with compensation and pension claims issues. They will then 
continue to receive their primary medical care as well as their mental 
health follow-up from the Deployment Health Clinic staff. Individual 
treatment, group treatment, marital counseling and sub-specialty 
referral are all available. Female providers and liaison with the 
Women's Clinic are available to meet the unique needs of returning 
female combat veterans.
    The purpose of the DH Clinic is to:
    1. Address and support veterans in all aspects of life which have 
been affected by their combat experience.
    2. Provide support in an accessible and integrated way.
    3. Provide support in an ongoing way for as long as it is needed.
    4. Provide the support necessary for the veteran and his/her family 
to readjust, recover, and be optimally functioning in all realms as 
soon as possible after return from combat and for the long term.
    To date, 250 newly returning soldiers have been seen in the 
Deployment Health Clinic and have received both a physical and mental 
health assessment as part of their post-deployment health evaluation. 
Approximately 400 individuals have contacted the clinic to date and 
have received referrals or assistance in other ways.
              integrated care, quality care, ongoing care
    The integration of services between the DoD, the VBA, the VHA, 
Readjustment Counseling Centers (Vet Centers), Veterans' Service 
organizations and community resources is occurring in ways far beyond 
what has been seen following prior combat deployments. The quality of 
care within the VA and satisfaction ratings of veterans relative to 
their VA care are high. We have programs, personnel and systems in 
place to provide the care which is needed and deserved by combat 
veterans returning from Iraq and Afghanistan. We will continue our 
efforts to provide that care; when our efforts are less than optimal, 
we depend upon the feedback of veterans and their families to help us 
to improve our work.
    I conclude by thanking those veterans and their families who are 
present today for their service, and by thanking Senator Murray and the 
Senate staff and those of you in attendance today for your interest and 
support in the needs of our returning combat veterans. It is our 
national responsibility to collectively embrace and to ultimately 
succeed in this mission.

    Senator Murray. Thank you.
    Dr. Ron Boxmeyer.

         STATEMENT OF RON BOXMEYER, M.S., TEAM LEADER,
  SEATTLE VETERANS CENTER, READJUSTMENT COUNSELING SERVICES, 
                 DEPARTMENT OF VETERANS AFFAIRS

    Mr. Boxmeyer. Thank you, Senator Murray. I want to say I am 
not a doctor.
    Senator Murray. I am promoting today.
    Mr. Boxmeyer. Vet centers have been the VA's first line of 
treatment for combat vets returning from combat for every war 
since Vietnam. For 26 years, vet centers have provided services 
to address the psychological and social readjustment needs of 
combat veterans and have worked toward preventing the possible 
development of more chronic and delayed forms of war-related 
trauma.
    The Seattle Vet Center staff consists of two psychologists, 
two social workers, one team leader and an office manager. 
Since the war on terrorism, we have seen 309 Iraq veterans. The 
Seattle vet center's current case load consists of 328 active 
cases, of which 120 are global war of terrorism veterans or 36 
percent of our active case load. A total of 109 new Iraq 
veterans have been seen at the vet center this fiscal year.
    The Department of Veterans Affairs, as you are aware, has 
approved an additional 100 positions nationwide to provide 
services to OEF/OIF veterans. We filled one of these positions 
with Michael Colson who is a retired Navy commander and 
psychologist. He has served multiple tours in Iraq and 
Afghanistan in the Marines, Saudi Arabia, Turkey and the 
Persian Gulf. He has provided briefings to over 5,000 returning 
veterans. After these briefings, Dr. Colson meets with the 
veterans when they indicate they want to be met with and talks 
to them about readjustment issues. These individuals are 
followed up by him for readjustment counseling needs or 
referred to other vet center counselors or community-based 
providers in the area.
    He has been able to establish onsite office space at Fort 
Lewis, Naval Station Everett and Naval Station Whidbey Island. 
By having office space available at these facilities, he is 
able to assist with readjustment issues in a local setting. He 
is also actively involved in providing services for returning 
servicemembers at Madigan Army Hospital.
    The Seattle Vet Center, along with Puget Sound Health Care 
System, the VA regional office and the Washington State 
Department of Veterans Affairs have collaborated together to 
provide a DVD that we are providing to OIF/OEF veterans in 
regard to readjustment needs and dealing with services 
provided. Hopefully, when they get this they will better 
understand what needs they have and what services are 
available.
    Treatment modalities at the Vet Center include group 
counseling, psychometric evaluation, sexual trauma counseling, 
grief counseling, EMDR and benefits assistance. When specific 
Vet Center assistance is not indicated, referrals will be made 
to appropriate community agencies. As the Seattle Vet Center is 
the entry point for many veterans into the VA system, each 
veteran is in turn referred to the Seattle VA Medical Center 
Deployment Clinic for physical and psychological assessment.
    The Seattle Vet Center also operates a fee contract 
program, with contract counselors available on the Kitsap 
Peninsula, Sequim, and north of Seattle in Everett. The 
contract program allows the Vet Center to provide services in 
communities where veterans live. We currently have 
approximately 80 clients in the contract program, of which 20 
are OEF/OIF veterans.
    That concludes my formal statement.
    [The prepared statement of Mr. Boxmeyer follows:]
Prepared Statement of Ron Boxmeyer, M.S., Team Leader, Seattle Veterans 
   Center, Readjustment Counseling Services, Department of Veterans 
                                Affairs
    Vet Centers have been the VA's first line of contact for troops 
returning from combat for every war since Viet Nam. For 26 years, Vet 
Center counselors have provided services for the psychological and 
social readjustment needs of combat veterans and have worked toward 
preventing the possible development of more chronic and delayed forms 
of war-related trauma.
    The Seattle Vet Center staff consists of two psychologists, two 
social workers, one team leader/counselor and an office manager. Our 
current caseload is 315 veterans of which 81 are Operation Iraqi 
Freedom/Operation Enduring Freedom (OIF/OEF) veterans. The Under 
Secretary for Health has approved the hiring of an additional 100 
positions nationwide to provide outreach services to returning OIF/OEF 
veterans. The Seattle Vet Center filled one of these positions last 
January when we were fortunate enough to hire Dr. Michael Colson, a 
retired Navy Commander and psychologist.
    Dr. Colson has served multiple tours with marines and sailors, 
including operational tours in Afghanistan, Iraq, Bahrain, Oman, Saudi 
Arabia, Turkey, and other areas in the Persian Gulf. He has provided 
on-base briefings to over 5,000 returnees from Iraq/Afghanistan. 
Following his educational briefings, Dr. Colson provides individual 
sessions with veterans who indicate they may be experiencing 
readjustment problems. These individuals are, in turn, referred for 
follow-up visits with other Vet Center Counselors or community-based 
providers in their area. He has also been able to establish onsite 
office space at Ft. Lewis, the Everett Naval Station and the NAS 
Whidbey Island Naval Air Station. By having office space available at 
these facilities, he is able to assist returnees and deal with 
readjustment issues in a community setting. He is also actively 
involved in providing services to returning servicemembers on medical 
hold at Madigan Army Hospital. Today Dr. Colson is at the Ft. Lewis 
Army Base providing briefings to approximately 500 veterans.
    The Seattle Vet Center, along with the Puget Sound Health Care 
System, VA Regional Office, and the Washington State Department of 
Veterans Affairs have collaborated in the development of a DVD that we 
are providing to returning OIF/OEF veterans regarding readjustment 
counseling services available in Washington State. The DVD discusses 
readjustment issues and has assisted many returning OIF/OEF veterans 
better understand their military-related readjustment needs.
    Treatment modalities at the Seattle Vet Center include individual 
and group readjustment counseling, psychometric evaluation, grief 
counseling, sexual trauma counseling, and benefits assistance. When 
specific Vet Center services are not indicated, referrals are made to 
appropriate community agencies.
    As the Seattle Vet Center is the entry point for many veterans into 
the VA system, each veteran is, in turn, referred to the Seattle VA 
Medical Center's Deployment Clinic for a comprehensive physical and 
needs assessment.
    The Seattle Vet Center also operates a Fee Contract Program, with 
contract counselors available on the Kitsap Peninsula in Sequim and 
north of Seattle in Everett. The contract program allows the Vet Center 
to provide services in communities in which the veteran lives. We 
currently have 74 individuals on the contract program of which 18 are 
OIF/OEF veterans.

    Senator Murray. Thank you very much.
    Ms. Holt?

STATEMENT OF LINDA HOLT, TRIBAL COUNCIL MEMBER, SUQUAMISH TRIBE

    Ms. Holt. Good morning, Senator Murray and Members of the 
Committee on Veterans' Affairs. I would like to acknowledge the 
veterans in the room and offer them my personal thanks for 
their service.
    I am Linda Holt. I am an enrolled Suquamish Tribal member 
of the Suquamish Tribe just on the other side of the water 
here. I also serve as a council tribal member for the tribe. I 
work currently for the tribe as their health director and, 
therefore, oversee all of the social service programs that the 
tribe has and work closely with a great deal of veterans.
    I bring you greetings from the Suquamish Tribe, and I want 
to thank Senator Murray and the Committee on Veterans' Affairs 
for holding this field hearing, and recognizing the mutual 
trust responsibility that exists between the Federal and tribal 
governments to recognize and protect our veterans rights to 
quality health care on their return home from serving their 
country.
    First, I would like to acknowledge my inspiration for my 
involvement and continued commitment to veterans issues. My 
brother, Frank Cordero, a Marine Corps veteran of the Vietnam 
War, served two terms. I have seen firsthand the difficulty he 
had and still has in accessing care and benefits. Frank was 
supposed to be here today to provide testimony on behalf of all 
the Native American veterans that he serves, but his daughter, 
my niece, is undergoing emergency heart surgery and it is 
important for him to be with her today. So those of you who 
know Frank,I would ask for your prayers here.
    Vietnam vets have waited 30-plus years to apply for post-
traumatic stress disorder benefits because they didn't know it 
existed when they left Vietnam. It took the VA that amount of 
time to recognize PTSD as a disability. As the previous 
veterans who testified indicated, it was something that they 
felt shame for. I know my brother Frank waited 30 years to 
apply for it, because he didn't feel he was entitled to it 
because he was a survivor and had left too many friends back in 
the country.
    In regard to Vietnam, Agent Orange also is just now 
currently arising, and recognizing the Vietnam veterans that 
are developing diabetes in record numbers as a result of Agent 
Orange. Native Americans have served in the Armed Forces even 
before they were citizens of this country. In return, Native 
Americans have the least access to veterans services and 
benefits.
    The first woman casualty in the Iraq war was Opi Warrior 
who left two children for her parents to raise. It is a proven 
fact that the majority of veterans returning from war are faced 
with varying degrees of post-traumatic stress disorder.
    When Native American veterans return to their rural 
reservation communities, there are few or no services available 
to meet their needs. The Veterans' Administration and the 
branches of the armed services have not done enough to identify 
PTSD and to educate not only the veterans, but the entire 
veteran family. When faced with the repercussions of PTSD and 
their inability to understand what is happening to them, they 
often self-medicate with alcohol, drugs or a combination of 
both. This often leads to the possibility of suicide, domestic 
violence, divorce and sometimes homicide. When children are 
involved, the effect of PTSD on the family is often 
devastating.
    There needs to be a holistic approach for the whole family 
so that everyone has access to the same knowledge on issues 
they need to address that arise from the absence and return of 
their loved ones. Before a veteran is discharged, the whole 
family should go through counseling on how to recognize and 
address the issues of PTSD. The VA needs to recognize that the 
families are veterans.
    Outreach programs never seem to reach the tribal level. A 
trip to the VA hospital is an all day endurance for our 
veterans. This is very difficult for World War II veterans and 
is equally difficult for veterans who live in any rural 
setting. The lack of health facilities available to veterans 
where they live is a huge issue, limiting the available 
facilities access to the care they need. The problems are 
compounding when existing facilities are on a priority service 
system due to inadequate funding. A Vet living in self-imposed 
isolation only to find himself denied access to services 
because of priority levels will eventually cost the system even 
more money.
    I would like to address an MOU that was signed by the VA 
and the Indian Health services to provide care in Indian Health 
Service facilities for American Indian veterans. This has not 
been implemented and it is, again, the outreach problem that 
Indian country doesn't know about it. They don't know how to 
requisition VA. It is the same issue that our fellow veterans 
were saying, is they don't know how. When these veterans come 
home, they don't know how to implement and Indian country 
doesn't know how to implement.
    In closing, I would like to stress that this country 
promised quality health care to veterans and promised to meet 
their needs. It is time for Congress to fulfill that 
obligation. We need to always remember that if it weren't for 
our veterans' continued willingness to serve when called upon 
and to willingly lay down their lives, we would not enjoy our 
ability to share our views in this manner with our Government.
    Again, I would like to thank Senator Murray for her 
continued efforts to help veterans from all walks of life and 
ethnicities. Native Americans in Washington State are estimated 
at 10,000 and this doesn't include their families. We continue 
to offer our support to you, Senator, and we will continue to 
keep you where you are and fight the battle that you are 
fighting. We look to you as a warrior for our cause and thank 
you. My hands are up to you for your support for our veterans.
    [The prepared statement of Ms. Holt follows:]
  Prepared Statement of Linda Holt, Tribal Council Member, Suquamish 
                                 Tribe
    Good morning, Senator Murray and Members of the Committee on 
Veterans' Affairs.
    My name is Linda Holt; I am an enrolled Suquamish Tribal member and 
currently a Tribal Council Member. I am also currently employed by the 
Suquamish Tribe as their Human Services Director; as such I oversee all 
of the tribes, social service programs. Suquamish is in the process of 
establishing a Veteran program to help meet the ongoing needs of our 
Native American veterans.
    I bring you greetings from the Suquamish Tribe and want to thank 
Senator Murray and the Committee on Veterans' Affairs for holding this 
field hearing, and recognizing the mutual trust responsibility that 
exists between the Federal and Tribal governments to recognize and 
protect our veteran's rights to quality health care on their return 
home from service to their country.
    First, I would like to acknowledge my inspiration for my 
involvement and continued commitment to veterans' issues. My brother 
Frank Cordero is a Marine Corp veteran of the Vietnam War. Frank was 
supposed to be here with you today to provide testimony on behalf of 
the all the Native American veterans' he serves, but his daughter is 
undergoing heart surgery today, and it is important for him to be with 
her at this time. I would ask for all of your prayers on her behalf for 
a speedy recovery. I have followed Frank's integration back into his 
family and tribal culture since his return from Vietnam, and I have 
seen firsthand the difficulty he had and still has in accessing care 
and benefits.
    It is a well established fact that Native Americans have served in 
the Armed Forces of the United States, more per capita than any other 
ethnic group, in every conflict the U.S. has ever engaged in from the 
Revolutionary War to present. Despite the fact that our ancestors did 
so even though they were not even citizens of this country. What is not 
well established is the fact that Native Americans are the one minority 
group that has the least access to use of veterans' services they are 
entitled to.
    Native American Iraq and Afghan Veterans of this State returning 
from overseas face the same inherent well documented problems faced by 
their Great grandfathers of World War II, grandfathers of Korea and 
fathers of Vietnam. Many return to the rural reservation community 
where there are little or no services available to meet their needs, 
neither from the county, State, nor Federal governments. It is a proven 
fact that the majority of veterans returning from war are faced with 
varying degrees of Post-Traumatic Stress Disorder (PTSD). This has been 
true since the first wars fought by our United States veterans. The 
Veterans Administration and the branches of our Armed Services have 
done very little for our warriors returning home to identify PTSD and 
educate not only the veteran, but the entire family that he is 
returning to.
    Usually the wife and children have learned how to survive and 
function as a family without Dads' presence. When the veteran returns 
home he or she is faced with how to integrate themselves back into the 
family dynamics. When faced with the repercussions of PTSD and their 
inability to understand what is happening to them, they often tend to 
self-medicate themselves with alcohol, drugs, or a combination of both. 
This often leads to the possibility of suicide, domestic violence, 
sometimes to the murder of their spouse.
    The children of the family have not only had to deal with the 
parent being gone for long periods of time, but also become faced with 
the person their returning parent has become. This can be emotionally 
devastating for these children as they struggle to accept the absence 
of and fear for the safe return of their parent, and then are faced 
with the very real problems brought about by the PTSD the veteran 
returns with.
    There needs to be a better way to integrate these veterans back 
into their families and mainstream society. There should be a holistic 
approach for the whole family so that everyone is receiving the 
knowledge they need to address the issues that arise from the absence 
and return of their loved one. Before a veteran is discharged the whole 
family should go through counseling on how to address the issues of 
PTSD and the impact it could have on their family. This should be 
followed up by the Veterans' Administration in the treatment of the 
PTSD, not only of the veteran, but of the entire family.
    The question arises as to what is not working within the VA system 
to help our returning veterans with their reintegration back into their 
family settings as well as mainstream society. The lack of 
congressionally funded outreach programs, county, State and Federal, 
designed to assist veterans' in their reintegration. These programs 
never reach down to the rural reservation communities, nor consider the 
unique circumstances of minorities or the rural nature and isolation of 
reservation communities. This is not only true of Native American 
veterans but also for all veterans who return to rural settings. Often 
a trip to the VA hospital is an all day endurance for our veterans. 
This is very difficult for our elderly World War II vets, and most 
times they just refuse to go because they cannot endure the trip. The 
lack of health facilities for our veterans to utilize in the area they 
live is a very large problem. Now we have just faced the closure of the 
VA hospital in Walla Walla, this was a key facility to Native American 
Veterans in Oregon, Eastern Washington and Alaska. With the growing 
number of veterans returning from Iraq and Afghanistan we need to 
increase the numbers of medical facilities available to veterans for 
treatment, not reduce them. As I stated it is increasingly difficult 
for veterans to access the care they need with the limited number of 
facilities available, but they also are faced with being turned away 
for treatment because many of the existing facilities are on a priority 
service only system due to lack of funding.
    Also as previously stated there is a general lack of knowledge 
among veterans and community organizations on what benefits the veteran 
is entitled to. VA needs to develop an outreach program, once again not 
only for the veteran, but for the veterans' family and community 
organizations that are trying to help them.
    This leads me to what is working in Indian Country to assist our 
Native American Veterans. A grassroots network of veterans, including 
my brother Frank Cordero recognized the need to help our veterans 
obtain the services they needed. This core group of Tribal Veterans 
Representatives came together to develop a system to help. For the last 
15 years the one bright light for Native Veterans within the State of 
Washington and several other States across the Nation has been the 
Tribal Veterans Representative (TVR) program. First started here, this 
program utilizes a Native American of the community of each of the 24 
different Tribal communities to assist, provide support and aid to any 
and all veterans residing within their tribal community. Where very 
little services were provided before, the TVR's have been instrumental 
in assisting not only recent returning veterans, but veterans and 
eligible dependent family members from other eras as well. Native 
American Veterans through the TVR program have been able to access 
claims for compensation, pension benefits, housing, employment, 
education, insurance and most importantly the outreach to them within 
their communities.
    In closing I would like to stress that this country made a promise 
to these veterans that are returning from a war this country committed 
them to, in return they were promised that this country would take care 
of them on their return and provide them with quality health care and 
to meet their needs. It is time for Congress to recognize their 
responsibility to these veterans that have offered their lives for the 
many freedoms we enjoy, and sometimes take for granted, in this 
country. We need to always remember that if it wasn't for our veterans 
continued willingness to serve when called upon, and to lay down their 
lives, we would not enjoy the freedom to share our views in this manner 
with our Government.
    Again I would like to offer my heartfelt gratitude to Senator 
Murray for her continued effort to help our veterans from all walks of 
life and nationality. Native Americans in Washington State estimated at 
10,000 and their families continue to offer our support to keep you 
there. I also would like to give my personal thanks and the thanks of 
the Suquamish Tribe to the Senate Committee on Veterans' Affairs for 
their continued support of veteran's issues.

    Senator Murray. Thank you.
    Ms. Forbes.

        STATEMENT OF COLONEL MARY FORBES, J-1 AND HUMAN 
       RESOURCES DIRECTOR, WASHINGTON ARMY NATIONAL GUARD

    Colonel Forbes. Senator Murray, distinguished guests, I am 
truly humbled to be here today and to have this honor, too. My 
name is Colonel Forbes and I have been on active duty for 22 
years. My main objective for the last year has been to work 
with the Army and the Air National Guard on reintegration 
programs to reintegrate the families and to help them prepare 
to get back into civilian life.
    We have worked really hard to develop a model to transition 
soldiers from combat to civilian life. The model had to be 
reasonable to unit commanders and be able to fit into the 
commander's time constrained drill time on weekends. Once a 
Guardsman returns to a traditional role, he or she is only 
available on a weekend or 2 days a month.
    From the beginning of this process we had John Lee, the 
deputy director of WDVA, the Washington Department of Veterans 
Affairs, and he advocated the idea of after active duty 
customer service. Readjustment counselors and VA doctors also 
agreed to this idea of after active duty follow-up, because of 
the fact that often it takes months for the soldier or 
servicemember to realize that there is a need.
    The MOU team or memorandum of understanding team created 
this initiative we call family activity day. But we purposely 
decided it wouldn't be another briefing, but an opportunity for 
veterans organizations to provide one-on-one customer service. 
The 4-hour Family Activity Day starts with a 20-minute 
introduction which is meant to inspire our soldiers and 
servicemembers and their family members to use the entitlements 
and benefits they earned. Then it is followed by 3\1/2\ hours 
of customer service where they can get one-on-one private time 
to really address their needs. That really, truly is private.
    General Lowenberg helped this process by making Family 
Activity Day an order. This month we will have 11 and we have 
followed through with having 22 in the next 5 months.
    I see two significant challenges in the next several years. 
First, it was talked about several times already today--it's 
the challenge of continuously communicating with our veterans. 
Second, is ensuring that servicemembers have the right 
resources at the right time given that many of their issues may 
not surface or materialize for many years to come.
    Getting the word out that there is a vast array of agencies 
that want to help veterans will continue to be difficult. 
Servicemembers may be unaware of the many services that are 
available to them because information may be fragmented, 
uncoordinated, and changing, or it just may be that they are 
given the information, as we have heard, at a time when they 
are coming off active duty and their mind is somewhere else.
    I strongly believe we need a positive education focused 
media plan to encourage our servicemembers and veterans on the 
many benefits and services available. I believe we need a media 
plan that educates the public using multiple formats, using 
radio, TV, print, Internet and hands-on workshops. Our Family 
Activity Days is one proven successful model to communicate and 
inform our soldiers.
    Our Family Assistance Center program could provide a 
healthy means to communicate over long term to, inform, educate 
and reinforce the benefits we have.
    I recommend a partnership that could be formed at the 
national level. We could leverage State, Federal and private 
organizations to develop such a media campaign for radio and 
TV. The goal would be to synchronize the efforts, avoid 
duplication, plug gaps in coverage and be sure we reach every 
veteran regardless of their location. We need to mutually 
support a Federal, State and private communication campaign 
over the next 50 years. And I say, ``50 years,'' because these 
vets will be with us for that long and even longer. The public 
campaign would also reassure our veterans, the public and the 
elected officials, the long-term commitment from our Government 
and our private business leaders.
    The second thing I mentioned, is ensuring that our 
servicemembers have access to the right resource at the right 
time given that many of the issues arise over a period of 
years.
    To accomplish this, I think we need a coordinated system 
that provides services to our members over an extended period 
of time. A working example of that is our family assistance 
centers of which we have eight across the State and we talked 
about that yesterday. We need dedicated resources and funding 
to ensure our decentralized family assistance centers continue 
to operate for 2 to 6 years.
    Another system I could mention is the assistant or TAP, 
which is ongoing and is a long-term process. It is not a 
briefing, but it is a customer service piece that must be added 
to TAP. We can be very proud of our procedures here in 
Washington State to assist our servicemembers in their 
transition from combat to civilian life. I encourage everyone 
here to continue our collaborative efforts and future 
improvements for business practice of taking care of our great 
servicemembers and their families who have given us so much. 
Thank you.
    [The prepared statement of Colonel Forbes follows:]
  Prepared Statement of Colonel Mary Forbes, J-1 and Human Resources 
                Director, Washington Army National Guard
    My name is Col. Mary J. Forbes. I am a member of the Washington 
National Guard and I have served over 22 years of active duty. 
Currently, I am assigned as the Joint Personnel Officer, J-1, for the 
Washington National Guard. I am responsible for the oversight of the 
Human Resource Office, Family Support Programs, Equal Employment and 
Equal Opportunity Programs, Employer Support to Guard and Reserve 
(ESGR) and Labor Relations.
    Since being assigned in June of 2004, my number one focus has been 
the reintegration of Washington Guard soldiers and airmen from active 
duty back to their traditional reserve role and the very important job 
of reconnecting loved ones and families.
    We have worked very hard to develop a model to transition soldiers 
from combat to civilian life. The package or model also had to be 
reasonable to unit commanders and fit into the commander's time-
constrained weekend training assembly period. Once a guardsman returns 
to the traditional reserve role, he or she is only available 1 weekend 
per month.
    Initially we partnered with the Washington Department of Veterans 
Affairs (WDVA). With the assistance and encouragement of WDVA, I 
participated in a series of veteran affairs meetings in which members 
of our team incrementally brainstormed and then built a model, which we 
codified in a groundbreaking memorandum of understanding (MOU).
    From the beginning of this process, John Lee, Deputy Director of 
the WDVA, advocated the idea of ``after'' active duty customer-service. 
Readjustment counselors and VA Doctors on the committee emphasized that 
servicemembers often experience a need for interdiction services at the 
3-6 month mark after active duty. The MOU team created an initiative we 
call ``Family Activity Day.'' Members purposely decided this would not 
be another ``briefing'' but an opportunity for veteran organizations to 
provide one-on-one customer service. The 4-hour Family Activity Day 
starts with a 20-minute introduction which is meant to inspire 
servicemembers to use their earned VA entitlements and benefits. The 
following 3\1/2\ hours allows the servicemember to personally meet with 
counselors, specialist, and professionals from a variety of veteran 
organizations.
    Washington State's Adjutant General, Major General Tim Lowenberg, 
issued the following order: I want each Commander to conduct a Family 
Activity Day within 3 to 6 months after returning from Operation 
Enduring Freedom, Operation Iraqi Freedom, and Noble Eagle as part of 
their normal training assembly schedule. The Family Activity Day 
provides servicemembers and their families personalized customer 
service in understanding, requesting or filing for Veteran's benefits 
and entitlements.
    General Lowenberg's order ensured that each commander would conduct 
these events in a similar manner for all units across the State. To 
date, we have conducted 4 Family Activity Days and have 22 more 
scheduled over the next 5 months, by which time we will have provided 
customer service to more than 3,000 servicemembers. We have already 
received very positive feedback from servicemembers and their family 
members. Many have expressed great appreciation for the opportunity to 
participate.
    We have been successful thus far in leveraging local, State, and 
Federal agencies as well as private businesses to assist our 
servicemembers at the 6- to 9-month post-active duty time period. In 
collaboration with the Washington DVA, the Guard is currently planning 
the program and training that we will focus on the next 18-24 months.
    I see two significant challenges in the next several years. First, 
is the challenge of continuous communication with veterans. The second 
is ensuring that servicemembers have access to the right resource at 
the right time given that many of their issues may not surface or 
materialize for many years to come.
    Getting the word out that there is a vast array of agencies that 
want to help the servicemember will continue to be difficult. 
Servicemembers may be unaware of many of the services that are 
available because information is fragmented, uncoordinated and 
changing. At the national and State level, I strongly believe we need a 
positive educationally focused media plan to inspire, reinforce, and 
encourage servicemembers of the many benefits and services available. I 
believe we need a media plan that educates the public, using multiple 
formats such as radio, TV, print, internet and hands-on workshops. Our 
Family Activity Days have proven successful, but are only one method 
for communicating to and informing our members.
    I recommend a partnership be formed at the national level which 
leverages State, Federal, and private organizations to develop and 
execute a media campaign for TV, radio and other media forms. The goal 
would be to synchronize efforts, avoid duplication, plug gaps in 
coverage, and be sure we reach every servicemember regardless of 
location. We need a mutually supporting Federal, State, and private 
communication campaign over the next 50 years to continue to 
communicate with our veterans. I say 50 years because those heroic 
servicemembers who are severely disabled will need to hear reinforcing 
VA messages for their entire life. The public campaign would reassure 
the servicemember, the public and elected officials of the long-term 
commitment from our Government and private business leaders.
    Second is ensuring our servicemembers have the access to the right 
resource at the right time given that many of their issues may arise 
over a period of years.
    To accomplish this, I believe we need a coordinated system that 
provides services to our servicemembers and their families over an 
extended time period. An example of a working system is our Family 
Assistance Centers. The Washington National Guard needs the resources 
and dedicated funding for our decentralized Family Assistance Centers 
throughout the State to ensure this continuous support for the next 2 
to 6 years and beyond.
    We can be very proud of our collaborative efforts to assist our 
servicemembers in their transition to civilian life. I encourage 
everyone here to continue to collaborate and partner on future 
improvements to our business practices of taking care of the great 
servicemembers and their families who have given so much to our 
country.

    Senator Murray. Thank you very much.
    Dr. Hunt, I want to start with you. We heard a lot from the 
last panel about the prevalence of post-traumatic stress 
syndrome in our soldiers returning from Afghanistan and Iraq.
    Can you outline for us why we are seeing such a high 
prevalence of veterans with PTSD?
    Dr. Hunt. Actually the numbers that have been reported 
vary. A recent study rates the prevalence as low as 5 percent, 
but the study in the New England Journal found rates around 17 
percent. Other reports have found rates up to 30 percent. Some 
of the most reliable information we have from Vietnam veterans 
suggested that 30 percent will have lifetime occurrence of 
diagnosable PTSD. And at any given time, 15 percent will have a 
diagnosable PTSD. And it is probably the most reliable figure 
that is available at this point. I think one of the reasons 
that we see different figures is that these symptoms can 
present themselves at different times along the way. People may 
not have symptoms early on. They may have symptoms a year down 
the road or 2 years down the road.
    We have a program for ex-POWs at our center and sometimes 
these veterans will have PTSD symptoms arise years down the 
road. One reason we are seeing high rates is because the combat 
traumas involved in the current conflicts are widespread and 
almost everybody is exposed to risks on nearly a daily basis in 
many areas of Iraq and Afghanistan.
    Senator Murray. I would ask if you could provide verbal 
testimony for the record? I am hearing that it is a 24/7 war. 
There are soldiers in Iraq who don't have any relief, and that 
is one of the reasons servicemembers have----
    Dr. Hunt. We see many veterans from the 81st Brigade that 
have had significant combat. So I think it would be reasonable 
to say that for many deployed troops there is a widespread risk 
often on a daily basis, certainly for particular parts of Iraq.
    Senator Murray. We have heard some pretty disturbing 
testimony from some of our previous panelists about what 
veterans have been through. You are seeing a lot of those as 
they come through your Deployment Health Clinic, and I want to 
know if you have any insights on how the situations like 
Sergeant Romanelli described are happening?
    Dr. Hunt. In terms of gaps in care, for example?
    Senator Murray. Correct.
    Dr. Hunt. There is no doubt that there is a problem of gaps 
in care particularly for those people that are Reservists that 
are being demobilized. We do have pre-separation programs for 
people who are leaving the military to try to get them into 
care before they separate from the military. For Guard and 
Reservists who are being deactivated, they are eligible for VA 
care for 2 years for any conditions they have. But they may 
live in an area where they can't come to the VA.
    We do have services available through the Washington State 
Department of Veterans Affairs, and at the Vet Centers. So we 
can get mental health treatment for people wherever they might 
be living in the State, even in the more remote areas, through 
contract providers.
    Senator Murray. Is part of the problem that we are seeing 
the high numbers of Guard and Reserve that don't necessarily 
live around the base, and come home and reintegrate in a 
community many miles away from the base, or into a community 
that is not aware of military needs that we are seeing these 
gaps?
    Dr. Hunt. That is a problem. We are trying to reach people 
while they are still in, when we are having Family Days and 
outreach events, trying to reach the National Guard units and 
Reserve units, but we really need to get the word out. Also 
getting people plugged into benefits early on and getting the 
claims process started for these conditions. Once they are 
service connected for these conditions, then they are eligible 
for contract care even in the remote areas. So we are trying to 
assist veterans in getting the claims process started early on. 
Even with this, there may be a 3- to 5-month gap in accessible 
care.
    Senator Murray. Which is a lot.
    Dr. Hunt. This is a problem some veterans are experiencing.
    Senator Murray. Thank you. Thank you.
    Mr. Boxmeyer, we have heard from a number of our panelists 
about the problems with employment coming home, and the skills 
they used in Iraq such as fixing helicopters does not translate 
into jobs here. This poses problems for small business owners. 
Can you talk a little bit about employment, what you have seen 
and what gaps there are for soldiers?
    Mr. Boxmeyer. There is a gap when there are no jobs 
available. I don't specialize in employment. We refer people to 
jobs through work sourcing. But commenting on the question you 
asked before about the number of PTSD clients, we are seeing a 
very high percentage of people coming back with full diagnosed 
PTSD. For example, in dealing with one member of a unit myself, 
obviously they see a lot of trauma in Iraq, because out of a 
12-person unit, 8 have been diagnosed with PTSD. That is out of 
a 12-person unit.
    I think it is also important to realize that in many cases 
Vietnam veterans didn't realize they had issues until years 
after the war. Veterans coming home now--like Dr. Hunt said--it 
might be 17 percent with PTSD, it might be 20 percent with 
PTSD, but in 10 years I predict it is going to get a lot 
higher.
    And the thing we have to remember is that you don't really 
cure PTSD. You teach people how to live with it, adjust to it, 
and how to function. But every time our country engages in a 
war, our country has to accept responsibility to bear the 
casually rate. Thank God people like you are speaking up. I 
just wish there were more of you.
    Senator Murray. Thank you.
    Ms. Holt, you testified about post-traumatic stress 
disorder in people who live in rural communities. That is a big 
category. One of the things that you mentioned was treating the 
whole family. I have heard a lot from people whom I have talked 
to say that it is not the soldier themselves that recognizes 
the problem. It is their spouse. So having them understand what 
the symptoms are is absolutely critical.
    What have you seen out there that worked or doesn't work 
and how can we----
    Ms. Holt. Again, Senator, referring to our Native American 
veterans, I think it is doubly hard for them, because I know 
when my brother Frank applied for veterans benefits, he was 
initially denied because they said he didn't seek psychiatric 
care when he came home. He was able to appeal that decision and 
brought one of our native healers to testify at that hearing 
stating that Native American warriors don't seek traditional 
western medicine. They seek their traditional tribal cultural 
medicine. The tribal veterans organization and the tribal 
veterans have done that amongst themselves.
    Kent Chaparrel in Yakima has been very beneficial depending 
a lot on funding. But I think that access to care--Suquamish 
doesn't have a health clinic like a lot of tribes do. So we 
are, like I said, transporting our veterans to Seattle to 
receive care. There aren't really any psychiatrists--I believe 
there is one in Kitsap County that offers treatment for post-
traumatic stress disorder.
    I saw this with my brother Frank when he came home from 
Vietnam, and watched him go through the process. The 
hypervigilance my sister-in-law mentioned, the nightmares that 
he had, and that she could not touch him if he was asleep. She 
had to stand at the end of the bed and yell at him to wake him 
up, because she got knocked down a couple of times before she 
learned that. And so the hypervigilance that they have, you 
know, the sounds of a helicopter going over, if he were here 
right now and heard that, you would see that he would be so 
tensed. The indicators that the family would see are 
alcoholism, drug abuse, anger, domestic violence and verbal 
abuse that spouses take from their spouses.
    I think that it is detrimental that the family themselves 
aren't being treated as a holistic group when their men come 
home, because they are the ones that are facing this and they 
are the ones that deal with it silently.
    Senator Murray. Dr. Hunt, I want to go back to you because 
in the previous panel we heard about the shame word associated 
with post-traumatic stress syndrome and the concern that, I 
think, especially for men admitting that post-traumatic stress 
syndrome is there or employment issues. How do we deal with 
that as policymakers, as a society to make sure that we can get 
that?
    Dr. Hunt. Because it is so important that people get 
treatment, what we have done on the treatment side is to try to 
make treatment seem less threatening. To try to destigmatize 
these post combat symptoms and to really emphasize that these 
are symptoms that many people have, rather than saying, well, 
``you have got PTSD.'' Many of these symptoms are common and 
normal for people who come back from combat. So trying to 
destigmatize the symptoms and the treatment is a very important 
part of getting people into treatment.
    There are real reasons sometimes that people are reluctant 
to be labeled as having PTSD, either because it may impact a 
security clearance, or working in law enforcement or may result 
in a military career being curtailed. That is a real problem. 
We have to sort of balance the need for a treatment for these 
conditions with the very real and potentially problematic 
social stigmas and personal consequence of being ``labeled.''
    What we try to do is deemphasize the labeling of people as 
having PTSD or not having PTSD and emphasize the issues as post 
combat symptoms, many of which we can treat very specifically. 
We have a new medication, prazosin, that looks like it works 
for treating nightmares, for example, and we have medications 
that might help for difficult sleep problems. Counseling 
individuals and treating the individual in a more holistic way, 
as Linda was advocating is an important approach. There 
continue to be stigmas associated with being treated for 
depression or PTSD. That may be a problem, unfortunately, until 
the public is educated about these conditions.
    Senator Murray. Colonel Forbes, I am going to jump to you. 
We are in over time, but I wanted to ask you a question about 
an issue I have not heard much about here today. I have heard 
it everywhere I go in this State and that is that word Tri-
Care. Is that a problem you are hearing from the soldiers you 
are dealing with in terms of their access to Tri-Care, not 
getting to go see doctors, ending up paying health care out of 
their own pockets because the system is so difficult to access? 
Can you share a little bit----
    Colonel Forbes. Yes, ma'am. Yes, there are a lot of 
questions and some of the questions are information based on 
educational. It is just because National Guard Reservists don't 
have Tri-Care until they are on active duty some of it is a 
learning curve, and getting used to learning the system and 
learning what not to do or learning to do things ahead of time 
and preparing themselves.
    And you know, just anecdotally, there are a lot of 
customers right now. There appears to be a lot of customers, 
and every agency whether they are getting service at a medical 
treatment facility or a Tri-Care person off base, everyone is 
trying to handle the workload. It appears to me that it has 
just been hard to handle the workload at this time with all of 
the cases that are there.
    Senator Murray. So people have gone through----
    Colonel Forbes. Because there was not enough staff. There 
was not enough funding available for the number of staff and 
doctors needed. All those things taken into consideration to 
take care of a large group of folks and their families. I don't 
really have documentation to back that up, ma'am, but it 
appears to me that a lot of the issues, first of all, go around 
understanding the system and then, you know, how to access it 
from remote locations that they can get their funding concerns, 
but they have to do it in a certain order.
    And then an educational piece also is knowing that you have 
to get the referral. We heard that yesterday. You have to call 
and get a control number to get authorization to see a 
physician, and that is an educational piece.
    Senator Murray. Are we doing a better job on deployment of 
educating soldiers about how Tri-Care works in their families?
    Colonel Forbes. Yes, ma'am. What we are doing is we are 
continually changing and improving our workshops, our seminars. 
We are doing predeployment, more robust predeployment, 
reintegration training, and covering and recovering the areas 
that we know have been traditionally difficult to get across to 
folks. But you know, as I mentioned earlier, it is a constant 
struggle to educate and get folks out, because you can't just 
give a person a briefing once and think they are going to 
understand a complicated, cumbersome bureaucratic Government's 
laws or rules. And so we are trying a new model now.
    Senator Murray. It was previously referred to as crud.
    Colonel Forbes. I will try to be more eloquent. But what we 
find now is we need to think about those workshops and coming 
back to the topic. I think that the transition program, 
starting it well before they come home and proceeding maybe up 
to a year after they get home so that it can be that 
reaffirming, reinforcing--here are the benefits that you have.
    And if I can just mention this situation. It is not so much 
for folks that are on active duty. It is while they are on 
medical hold. They must be educated and trained, not just once 
in a briefing, but multiple times and then that customer 
service piece brought in. And I have had the pleasure in the 
last week of talking to the commander at Fort Lewis who handles 
that, and they are very eager to adopt our model and idea.
    The Department of Labor has just hired a person who will be 
seated--an Employment Security Department person that will be 
seated right there with that medical hold company. And we 
talked yesterday because we were excited at Washington 
Department of VA, and all of us together trying to figure out 
how we can bring what we are doing here to them before they get 
off, and know what they are going to have, you know, when their 
active duty pay stops and they have to go into the VA system. 
So I know that people have already recognized these gaps and 
folks are doing things, Department of Labor, active duty, to 
try to fill this gap.
    Senator Murray. Thank you very much. I want to thank 
everyone here for helping the Senate Veterans' Affairs 
Committee get a better handle on the needs of our veterans as 
they come back from Iraq and Afghanistan. All the statements 
and testimony will help our Committee enact policies for our 
veterans. But these statements and testimony today really make 
clear that we have a lot more that we need to learn and a lot 
more work that needs to be done. I think the testimony on needs 
for our rural veterans, education, employment, medical 
concerns, many other issues that were raised will help me to do 
a better job to bring the needs of Washington State veterans 
back to the other Washington. I look forward to working with 
all of our witnesses who came today, as well as many others in 
Washington State and across the country to continue to shed 
light on the needs that exist out there.
    I certainly want all of you to know that I will continue to 
check in with you or others in the future to make sure we are 
doing the right thing. I want to encourage everyone here to 
sign up for our veterans update. You go to my Web site, again, 
www.murray.senate.gov. We continue a dialogue on the issues 
affecting veterans and want to encourage people to be able to 
use that. And as I mentioned earlier, I just successfully 
fought to get the VA funding that it needs for the next several 
months and the VA what it needs for now. We are in the process 
of making sure today that we are now meeting needs for the 
negligent fiscal year and this testimony will be very helpful 
for me as we try to make sure we do that right.
    But I will let you know that any funding isn't going to 
reach the VA for quite some time. So I will keep my eye on 
these issues and want to hear from all of you as we continue in 
the coming months. I want you to make sure that I, along with 
the entire VA Committee continue to look into these issues to 
make sure that our veterans have the services they need when 
they return home from combat. I want to again thank everyone 
for participating in today's hearing, as well as all of you who 
attended. There are far too many people to thank who helped me 
today.
    I especially want to thank Major Phillip Osterley of the 
Washington State National Guard----
    I am sure he is around here somewhere. There he is--who has 
been really helpful to me, and any Guard members who have 
helped with all aspects of today's hearing.
    Major, you and your staff really went out of your way to 
help put this together, and I want you to know how much I 
appreciate the work you did, as well as my own staff members 
who are here who put in a tremendous amount of time.
    Finally, I wanted to remind everyone who is here that we 
have a number of service folks who are here from the VA, Tri-
Care and other services that are here to help. You are welcome 
to stay and talk with any of them if you need additional 
information. Again, thank you to all of you who participated. 
This hearing is adjourned. Thank you very, very much.
    [Whereupon, at 11:10 a.m., the Committee was adjourned.]
  

                                  <all>

</pre></body></html>
